No. _____
IN THE

Supreme Court of the United States
_________
MICHAEL NANCE,
Petitioner,
v.
COMMISSIONER, GEORGIA DEPARTMENT OF
CORRECTIONS, AND WARDEN, GEORGIA DIAGNOSTIC
AND CLASSIFICATION PRISON,
Respondents.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
ANNA M. ARCENEAUX
CORY H. ISAACSON
GEORGIA RESOURCE
CENTER
104 Marietta Street NW
Ste. 260
Atlanta, GA 30303
LAURIE WEBB DANIEL
MATTHEW D. FRIEDLANDER
HOLLAND & KNIGHT LLP
1180 West Peachtree Street
Suite 1800
Atlanta, GA 30309

MATTHEW S. HELLMAN
Counsel of Record
NOAH B. BOKAT-LINDELL
JENNER & BLOCK LLP
1099 New York Avenue NW
Washington, DC 20001
(202) 639-6000
mhellman@jenner.com

CAPITAL CASE
QUESTIONS PRESENTED
In Bucklew v. Precythe, 139 S. Ct. 1112 (2019), “all
nine Justices” agreed that a person challenging a State’s
method of execution could allege an alternative “not . . .
authorized under current state law” and that there was
therefore “little likelihood that an inmate facing a
serious risk of pain will be unable to identify an available
alternative.” Id. at 1136 (Kavanaugh, J., concurring).
In the proceedings below, Petitioner filed a § 1983
suit bringing an as-applied challenge to Georgia’s sole
statutorily authorized method of execution, lethal
injection. Petitioner alleged the use of a firing squad as
an alternative method. A divided panel held that
Petitioner’s challenge could not be heard. The panel
ruled that Petitioner must bring his challenge in habeas
rather than via § 1983 because he had alleged an
alternative method not currently authorized under
Georgia law. It further held that Petitioner’s claim
would be an impermissible successive petition
notwithstanding that the claim would not have been ripe
at the time of Petitioner’s first petition.
The questions presented are:
1. Whether an inmate’s as-applied method-ofexecution challenge must be raised in a habeas
petition instead of through a § 1983 action if the
inmate pleads an alternative method of execution
not currently authorized by state law.
2. Whether, if such a challenge must be raised in
habeas, it constitutes a successive petition where
the challenge would not have been ripe at the
time of the inmate’s first habeas petition.

ii
RELATED PROCEEDINGS
The related proceedings below are:
United States District Court (N.D. Ga.):
Nance v. Ward, Civ. A. No. 20-cv-0107 (N.D. Ga. Mar.
13, 2020) (order and judgment granting
respondents’ motion to dismiss)
United States Court of Appeals (11th Cir.):
Nance v. Commissioner, Georgia Department of
Corrections, No. 20-11393, 981 F.3d 1201 (11th
Cir. Dec. 2, 2020) (opinion)
Nance v. Commissioner, Georgia Department of
Corrections, No. 20-11393, 994 F.3d 1335 (11th
Cir. 2021) (en banc) (denial of petition for
rehearing)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ............................................ i
RELATED PROCEEDINGS...........................................ii
TABLE OF AUTHORITIES ...........................................v
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED ....................................... 1
INTRODUCTION .............................................................. 3
STATEMENT OF THE CASE ........................................ 6
A. Precedential Background ....................................... 6
B. Procedural Background .......................................... 9
REASONS FOR GRANTING THE PETITION........ 15
I. THE ELEVENTH CIRCUIT CREATED A
CIRCUIT SPLIT BY INCORRECTLY RULING
THAT METHOD-OF-EXECUTION CLAIMS LIKE
NANCE’S MUST PROCEED IN HABEAS. ..................... 15
A. The Circuits Are Split on the Proper
Procedural Vehicle for Claims Like
Nance’s. ................................................................... 15
B. The
Eleventh
Circuit’s
Holding
Contradicts This Court’s Jurisprudence on
the Relationship Between Habeas and
§ 1983. ...................................................................... 17
C. The Eleventh Circuit’s Rule Will Create
Jurisprudential and Practical Confusion............ 20

iv
II. THE ELEVENTH CIRCUIT’S DECISION
CONFLICTS WITH DECISIONS OF THIS COURT
AND OTHERS BY HOLDING CLAIMS LIKE
NANCE’S TO BE SECOND OR SUCCESSIVE
HABEAS PETITIONS. .................................................... 22
III. REVIEW IS NEEDED BECAUSE THE DECISION
BELOW ELIMINATES THE RIGHT THE COURT
CONFIRMED IN BUCKLEW. ......................................... 27
CONCLUSION ................................................................. 30
Appendix A
Nance v. Commissioner, Georgia Department
of Corrections, 981 F.3d 1201 (11th Cir. 2020)......... 1a
Appendix B
Order, Nance v. Ward, Civ. A. No. 20-cv-0107
(N.D. Ga. Mar. 13, 2020) ............................................ 47a
Appendix C
Judgment, Nance v. Ward, Civ. A. No. 20-cv0107 (N.D. Ga. Mar. 13, 2020) ................................... 68a
Appendix D
Denial of Petition for Rehearing, Nance v.
Commissioner, Georgia Department of
Corrections, 994 F.3d 1335 (11th Cir. 2021) (en
banc)............................................................................. 70a
Appendix E
Complaint, Nance v. Ward, Civ. A. No. 20-cv0107 (N.D. Ga. Jan. 8, 2020) ...................................... 85a

v
TABLE OF AUTHORITIES
CASES
Banister v. Davis, 140 S. Ct. 1698 (2020)....... 24, 25, 28
Baze v. Rees, 553 U.S. 35 (2008).................................... 7
Borden v. United States, 141 S. Ct. 1817
(2021) ........................................................................ 20
In re Bowling, No. 06-5937, 2007 WL
4943732 (6th Cir. Sept. 12, 2007) ........................... 26
Brown v. Muniz, 889 F.3d 661 (9th Cir.
2018) .......................................................................... 26
Bucklew v. Precythe, 139 S. Ct. 1112
(2019) .............................................. 4, 8, 20, 27, 28, 29
In re Campbell, 874 F.3d 454 (6th Cir.
2017) .......................................................................... 16
Department of Homeland Security v.
Thuraissigiam, 140 S. Ct. 1959 (2020) ................. 18
Garcia v. Quarterman, 573 F.3d 214 (5th
Cir. 2009) .................................................................. 26
Glossip v. Gross, 576 U.S. 863 (2015) ..... 7, 8, 10, 11, 19
Harbison v. Bell, 556 U.S. 180 (2009)......................... 18
Heck v. Humphery, 512 U.S. 477 (1994) .............. 18, 20
Hill v. McDonough, 547 U.S. 573 (2006)............ 7, 8, 19
Hope v. Pelzer, 536 U.S. 730 (2002) ............................ 19
Magwood v. Patterson, 561 U.S. 320 (2010) ........ 18, 25
Nelson v. Campbell, 541 U.S. 637
(2004) .................................................... 6, 7, 10, 18, 20

vi
Panetti v. Quarterman, 551 U.S. 930 (2007) ....... 23, 24
Singleton v. Norris, 319 F.3d 1018 (8th Cir.
2003) .......................................................................... 26
Skinner v. Switzer, 562 U.S. 521 (2011) ..................... 18
In re Smith, 806 F. App’x 462 (6th Cir.
2020) .......................................................................... 16
Stewart v. Martinez-Villareal, 523 U.S. 637
(1998) ........................................................................ 24
United States v. Buenrostro, 638 F.3d 720
(9th Cir. 2011) .......................................................... 26
Wilkinson v. Dotson, 544 U.S. 74 (2005) ................... 19
CONSTITUTIONAL PROVISIONS AND STATUTES
U.S. Const. amend. VIII ................................................ 1
28 U.S.C. § 1254(1) .......................................................... 1
28 U.S.C. § 2244(b)(2) ............................................. 23, 28
28 U.S.C. § 2254(a) .......................................................... 2
42 U.S.C. § 1983 ................................................... passim
OTHER A UTHORITIES
Authorized Methods by State, Death
Penalty Information Center, https://
deathpenaltyinfo.org/executions/meth
ods-of-execution/authorized-methodsby-state (last visited Sept. 16, 2021) .................... 29
Death Row, Death Penalty Information
Center,
https://deathpenaltyinfo.org/
death-row/overview (last visited Sept.
16, 2021) .................................................................... 29

PETITION FOR CERTIORARI
____________
OPINIONS BELOW
The opinion of the Northern District of Georgia is not
published but is reproduced in the Appendix hereto at
Pet. App. 47a-67a. The judgment of the Northern
District of Georgia is not published but is reproduced in
the Appendix hereto at Pet. App. 68a-69a. The Eleventh
Circuit’s opinion is reported at 981 F.3d 1201 and
reproduced in the Appendix hereto at Pet. App. 1a–46a.
The Eleventh Circuit’s divided order denying rehearing
is reported at 994 F.3d 1335 and reproduced in the
Appendix hereto at Pet. App. 70a-84a.
____________
JURISDICTION
The judgment of the court of appeals was entered
December 2, 2020, and a timely petition for en banc
review was denied on April 20, 2021. Under this Court’s
order of March 19, 2020, the time for filing a petition for
certiorari was extended to 150 days from the date of
denial of en banc review, i.e., September 17, 2021. The
jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
____________
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Eighth Amendment to the United States
Constitution provides: “Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.”

2
Title 28, Section 2254(a) of the United States Code
provides:
The Supreme Court, a Justice thereof, a
circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of
a person in custody pursuant to the judgment of a
State court only on the ground that he is in
custody in violation of the Constitution or laws or
treaties of the United States.
Title 42, Section 1983 of the United States Code
provides, in relevant part:
Every person who, under color of any
statute . . . of any State . . . subjects, or causes to
be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress . . . .
____________

3
INTRODUCTION
This petition presents an issue that has both
recurred in this Court’s cases and divided the courts of
appeals. It is settled law that in challenging a method of
execution as unconstitutional, a person must allege an
alternative method that is feasible and available. In this
case, Petitioner Michael Nance alleged that execution by
lethal injection would be tortuous for him due to his
severely compromised veins and other underlying
conditions. Nance further alleged an alternative
method—firing squad—that could be used to carry out
his execution constitutionally. Because lethal injection is
the only method of execution currently authorized by
Georgia statute, the alternative Nance alleged was
necessarily a non-statutory one.
Nance brought his method-of-execution challenge in
a § 1983 complaint, which is the vehicle this Court has
consistently held is proper for such challenges. But in
the decision below, a divided panel—later backed up by
a similarly divided en banc court—held that Nance was
required to bring his claim via a habeas petition because
Nance’s alternative proposed method was not currently
authorized under state law. In so holding, the Eleventh
Circuit squarely departed from the Sixth Circuit, which
has held that even where a prisoner asserts that all
methods of execution authorized under state law are
unconstitutional, that claim must be brought via § 1983,
not habeas.
It is vitally important that the Court address
whether § 1983 or habeas is the proper procedural
vehicle for bringing a method-of-execution challenge
where the prisoner identifies an alternative method not

4
currently authorized under state law. A split of
authority is intolerable in this area: a prisoner facing
execution in Ohio should not have different federal
remedies available to him than one facing execution in
Georgia. The panel’s decision is also plainly incompatible
with the line this Court has consistently drawn between
habeas and § 1983, including in other method-ofexecution cases. Nance does not assert that it would be
unconstitutional to execute him under any
circumstances; he asserts that the method the State
proposes to use to execute him is unconstitutional. That
kind of claim falls squarely on the conditions-ofconfinement side of the §1983/habeas line. And that
conclusion is unchanged by the fact that Nance has
alleged an alternative method not currently authorized
by state law. No one would say that a prisoner who
challenges the adequacy of prison medical care must
bring his claim in habeas if state law does not currently
authorize a constitutionally adequate level of care. It is
the same here.
But more than that, the Eleventh Circuit’s decision
warrants review because it closes the courthouse doors
to the very claim that this Court carefully preserved in
Bucklew. When Bucklew confirmed that a prisoner need
not plead an alternative method of execution currently
authorized under state law, it reflected that “all nine
Justices” saw “little likelihood that an inmate facing a
serious risk of pain will be unable to identify an available
alternative.” Bucklew v. Precythe, 139 S. Ct. 1112, 1136
(2019) (Kavanaugh, J., concurring) (internal quotation
marks omitted). But by classifying claims such as
Nance’s as the province of habeas petitions, and further

5
barring them as second or successive, the decision below
prevents Nance and similarly situated inmates from
obtaining federal relief when facing the prospect of an
unconstitutional execution.
According to the panel, if a prisoner has already filed
a habeas petition, his method-of-execution claim is
subject to the stringent rules for second or successive
petitions, even if the claim would not have been ripe at
the time of that earlier petition. Given that most death
row prisoners, like Nance, will have filed a first habeas
petition long before an as-applied method-of-execution
claim is likely to become ripe, the panel decision all but
ensures that no court will ever hear these claims. And in
states like Georgia that authorize a single method of
execution, prisoners will necessarily have to allege a
non-statutory alternative method, and thus necessarily
will be barred from bringing an Eighth Amendment
challenge under the panel’s decision, no matter how
deficient the State’s method is. In so holding, the panel
decision departs from decisions of this Court and other
appellate courts that have rejected that kind of Catch-22
interpretation of the second or successive petition rules.
And it nullifies Bucklew’s decision to allow such claims
as long as they allege some reasonable alternative.
Accordingly, this Court should review whether these
claims sound in § 1983 or habeas. To ensure that it has
the ability to review the entirety of the decision below,
it should also take up the ancillary question of whether,
if the claim does sound in habeas, it amounts to a second
or successive petition.
Petitioner respectfully asks this Court to grant this
petition for certiorari.

6
STATEMENT OF THE CASE
A. Precedential Background
In a series of cases stretching back almost two
decades, this Court has considered, but never
conclusively resolved, when a prisoner challenging the
constitutionality of the method of execution employed by
the State must bring that challenge via a § 1983 action,
and when the challenge must be brought in a habeas
petition.
The Court first opined on this issue in Nelson v.
Campbell, 541 U.S. 637 (2004). Three days before he was
set to be executed, Alabama prisoner David Nelson filed
a civil rights action under § 1983, “alleging that the use
of a ‘cut-down’ procedure to access his veins would
violate the Eighth Amendment.” Id. at 639. The Court
agreed that § 1983 was an appropriate vehicle for Nelson
to bring his claim. Id. at 639-40. The Court determined
that it need not resolve the broader debate over
“whether civil rights suits seeking to enjoin the use of a
particular method of execution—e.g., lethal injection or
electrocution—fall within the core of federal habeas
corpus or, rather, whether they are properly viewed as
challenges to the conditions of a condemned inmate’s
death sentence.” Id. 643–44. Even if a total challenge to
the use of lethal injection as a method of execution had
to be brought in habeas—an argument the Court did not
adopt—a challenge to a particular means of accessing
the prisoner’s veins to execute the injection need not be.
Id. at 645-46. As Nelson’s “entire claim is that use of the
cut-down would be gratuitous,” enjoining “the cut-down
procedure would [not] necessarily prevent Alabama

7
from carrying out its execution” and thus would not
trigger habeas jurisdiction. Id. at 645, 647.
The Court took a similar approach in Hill v.
McDonough, 547 U.S. 573 (2006). Hill “challenge[d] the
constitutionality of a three-drug sequence the State of
Florida likely would use to execute him by lethal
injection.” Id. at 576. The Court held that Hill’s suit could
go forward under § 1983 rather than as a habeas petition.
Id. In dicta, the Court observed that, if the relief sought
in a § 1983 action would “foreclose the State from
implementing the [inmate’s] sentence under present
law,” then “recharacterizing a complaint as an action for
habeas corpus might be proper.” Id. at 582–83. But it had
no need to decide the question, for, as in Nelson, “it could
not be said that the suit seeks to establish ‘unlawfulness
[that] would render a conviction or sentence invalid.’” Id.
at 583 (alteration in original) (citation omitted).
The Court later revisited the substantive Eighth
Amendment standards for method-of-execution
challenges in Glossip v. Gross, 576 U.S. 863 (2015).
Following the plurality opinion in Baze v. Rees, 553 U.S.
35, 61 (2008), the Court held in Glossip that “the Eighth
Amendment requires a prisoner to plead and prove a
known and available alternative” method of execution
that “presents less risk” of pain than the State’s planned
method, 576 U.S. at 879-80. The Court did not directly
address the procedural questions at issue in Nelson and
Hill. However, it noted that, in Hill, “[w]e held that a
method-of-execution claim must be brought under § 1983
because such a claim does not attack the validity of the
prisoner’s conviction or death sentence.” Id. at 879.

8
The Court’s most recent guidance on both the
substantive standards and the procedural vehicle for
establishing a method-of-execution claim came in
Bucklew v. Precythe, 139 S. Ct. 1112 (2019). Regarding
the substantive standard, the Court held that as-applied
Eighth Amendment challenges to a State’s chosen
method of execution, as well as facial challenges, must
plead an alternative method of execution. Id. at 1125.
This Court made clear, however, that prisoners seeking
to identify an alternative method of execution are “not
limited to choosing among those presently authorized by
a particular State’s law.” Id. at 1128. Because “the
Eighth Amendment is the supreme law of the land,”
reasoned the Court, “the comparative assessment it
requires can’t be controlled by the State’s choice of
which methods to authorize in its statutes.” Id.
On the procedural side, however, the Court merely
repeated its earlier discussions without breaking new
ground. Mindful of the potential conflict between state
law and the alternative method alleged, this Court noted
that “existing state law might be relevant to
determining the proper procedural vehicle for the
inmate’s claim,” so that habeas might be appropriate if
the claim foreclosed the State from carrying out the
execution. Id. (citing Hill, 547 U.S. at 582-83). However,
the Court did not decide the question. Nor did it change
the dividing line prior cases had drawn: method-ofexecution cases “must be brought under § 1983,”
Glossip, 576 U.S. at 879, unless they would “necessarily
impl[y] the invalidity of the prisoner’s sentence,” Hill,
547 U.S. at 580.

9
B. Procedural Background
Prior proceedings. In 1997, a jury convicted Michael
Nance of malice murder and related offenses and
sentenced him to death. Pet. App. 88a. On direct appeal,
the Georgia Supreme Court reversed his death
sentence. Id. After a 2002 resentencing hearing, Nance
was re-sentenced to death, which was affirmed on direct
appeal. Id. Nance then sought habeas corpus relief in
state court; he was granted sentencing relief by the trial
court, which the Georgia Supreme Court reversed. Id.
He then sought and was denied habeas corpus relief in
federal court. Pet. App. 88a-89a.
Lethal injection challenge. In or around May 2019,
a prison medical technician told Nance that the
execution team would have to “cut his neck” to carry out
a lethal injection because they could not otherwise
obtain sustained intravenous access. Pet. App. 93a. An
anesthesiologist who subsequently examined Nance
confirmed that Nance is at substantial risk of facing a
torturous and excessively painful execution due to his
severely compromised veins, and his prolonged and
increased use of the prescription medication gabapentin.
Pet. App. 93a-94a, 96a-97a.
If Respondents attempt an execution by lethal
injection, Nance will likely endure a prolonged and
painful attempt to gain intravenous access. Pet. App.
94a. Even if the execution team locates a vein, Nance’s
veins will not support an IV, and there is a substantial
risk that his veins will lose their structural integrity and
“blow,” causing the injected chemical (pentobarbital) to
extravasate (leak) into the surrounding tissue. Pet. App.
94a-95a. This would cause intensely painful burning and

10
a prolonged and only partially anesthetized execution
that would feel like death by suffocation. Pet. App. 94a;
see also Glossip, 576 U.S. at 872 (describing execution
attempt where, after numerous unsuccessful attempts to
obtain IV access, IV leaked fluid into Glossip’s tissue,
resulting in a botched execution). At the same time,
Nance’s use of gabapentin will interfere with the
sedative effect of pentobarbital, further increasing the
risk that he will be partially sensate to the agony
associated with respiratory and organ failure. Pet. App.
96a-97a. Aspects of Georgia’s protocol—like untested
compounded drugs from an unknown source and the
administration of the drugs from an ancillary room into
extended IV tubing—further increase the risks posed by
Nance’s medical conditions. Pet. App. 90a-93a.
The alternatives to conventional intravenous
access—central venous cannulation and a cutdown—also
present an unacceptable risk of a torturous and botched
execution because they are complicated medical
procedures that require specific training, tools, and
equipment not possessed by the execution team, and the
risks generated by Nance’s medical conditions and
Georgia’s protocol would still exist. Pet. App. 95a-96a;
see also Nelson, 541 U.S. at 641-42 (describing cutdown
procedure).
Because Georgia’s plan to execute Nance by lethal
injection presents a substantial risk of unnecessary pain,
Nance filed a complaint under 42 U.S.C. § 1983 on
January 8, 2020, against the Commissioner of the
Georgia Department of Corrections and the Warden of
the Georgia Diagnostic and Classification Prison
(“Respondents”).
The
complaint
alleged
that

11
Respondents’ lethal injection protocol, as applied to
Nance, violates his right to be free from cruel and
unusual punishment under the Eighth and Fourteenth
Amendments to the U.S. Constitution. Pet. App. 97a103a.
As required under Glossip and Bucklew, Nance pled
the use of a “feasible, readily implemented” alternative
to lethal injection—the firing squad—that would
“significantly reduce[] [the] substantial risk of severe
pain” present in lethal injection. Glossip, 576 U.S. at 877
(quotation marks omitted); see Pet. App. 101a-102a.
Nance asked the district court to grant declaratory and
injunctive relief prohibiting Respondents from
executing him by lethal injection. Pet. App. 103a-104a.
Respondents filed a motion to dismiss Nance’s
complaint, arguing, inter alia, that it was filed outside
the statute of limitations and failed to state a plausible
claim for relief. Pet. App. 4a. The district court granted
the motion, finding that Nance’s complaint was untimely
and failed to state a claim. Id.
Panel decision. Nance timely appealed to the U.S.
Court of Appeals for the Eleventh Circuit, and the
parties briefed the grounds on which the district court
relied to dismiss Nance’s complaint. Two weeks before
argument, the panel issued an order requesting the
parties to address two issues at argument that had never
been raised or briefed by either party: 1) Whether
Nance’s § 1983 claim amounts to an attack on his death
sentence that may only be brought in habeas because
“[h]e seeks an injunction that would foreclose the State
from implementing his death sentence under present
law”; and 2) If Nance’s claim must be reconstrued as a

12
habeas petition, whether it is second or successive.
Order, Nance v. Comm’r, Ga. Dep’t of Corrections, No.
20-11393 (11th Cir. Sept. 30, 2020); see Pet. App. 4a, 81a.
On December 2, 2020, a divided panel vacated the
district court’s order and remanded with instructions to
dismiss the complaint for lack of jurisdiction. Pet. App.
2a. The panel majority’s opinion did not address the
grounds on which the district court dismissed the
complaint and on which the parties based their briefs. It
instead disposed of Nance’s case on the grounds raised
by the panel sua sponte. Id. Writing for himself and
Judge Lagoa, Chief Judge William Pryor said that “the
Supreme Court made it clear in Nelson, Hill, and
Bucklew that it is an open question whether section 1983
can support a claim that would ‘foreclose the State from
implementing [a] lethal injection sentence under present
law.’” Pet. App. 11a (quoting Hill, 547 U.S. at 583). The
panel majority then answered “the question” this Court
“left open,” Pet. App. 12a: it held that any “complaint
seeking an injunction against the only method of
execution authorized in a state must be brought in a
habeas petition, because such an injunction necessarily
implies the invalidity of the prisoner’s death sentence.”
Pet. App. 14a.
Having held that Nance’s complaint sounded in
habeas, the panel majority then further held that Nance
was barred from relief by the restrictions governing
second or successive petitions. Pet. App. 25a. The panel
majority noted that Nance had already brought a habeas
petition contesting the validity of his death sentence.
Pet. App. 20a. Given that prior habeas challenge, the
panel majority concluded that the district court lacked

13
subject matter jurisdiction over this second petition.
Pet. App. 25a. The panel majority further concluded that
even if Nance had asked the appellate court for
permission to bring a successive petition, that request
would be denied because Nance was not relying on a new
rule of constitutional law or newly discovered evidence
of innocence. Pet. App. 19a-20a.
Judge Martin dissented and concluded that “the
majority’s ruling offers chaos instead—not only for Mr.
Nance, but for everyone on death row in Georgia,
Alabama, and Florida.” Pet. App. 26a. Judge Martin
explained that the majority decision upset settled law
that a prisoner who did not challenge the validity of the
death penalty itself, but only the particular means of
carrying it out, “best fits into the category of one
relating to the circumstances of his confinement. He
simply is not seeking to ‘invalid[ate] a particular death
sentence.’” Pet. App. 33a. Judge Martin expressed
concern that the majority’s rule would lead to
uncertainty about whether a given method-of-execution
challenge sounds in § 1983 or in habeas. Pet. App. 35a36a. Judge Martin further found that on the merits,
Nance had stated a § 1983 claim based on his allegations
that he would unconstitutionally suffer under the State’s
lethal injection protocol and that a firing squad is a
feasible and readily available alternative. Pet. App. 43a45a.
En banc proceedings. Nance filed a petition for
rehearing en banc on December 23, 2020. See Pet. for
Reh’g En Banc, Nance, No. 20-11393 (11th Cir. Dec. 23,
2020). On April 20, 2021, a majority of judges

14
participating voted to deny the en banc petition. Pet.
App. 70a-71a.
Chief Judge Pryor, joined by Judge Newsom and
Judge Lagoa, issued a statement respecting the denial.
Pet. App. 72a. Chief Judge Pryor reiterated that the
panel majority’s decision is “not . . . inconsistent with
Supreme Court precedent,” and in particular Bucklew.
Pet. App. 74a. And he disputed that the decision made
relief unavailable to claimants like Nance who allege
alternative methods of execution not authorized by state
law. “Prisoners may allege in habeas petitions [such]
methods . . . . All the panel opinion does is recognize that
Congress denies us the power—regardless of whether a
petitioner alleges a violation of his substantive
constitutional rights—to provide a forum or a remedy
for a claim in an unauthorized second or successive
habeas petition.” Pet. App. 76a.
Judge Wilson dissented, joined by Judges Jordan and
Martin. Pet. App. 77a. The dissent noted that, in
Bucklew, this Court had held that prisoners challenging
methods of execution “may point to a well-established
protocol in another State as a potentially viable option”
for comparison, even if not currently authorized by the
prisoner’s State. Pet. App. 80a (quotation marks
omitted). Indeed, “Justice Kavanaugh wrote separately
in Bucklew to emphasize this point.” Id. Doing so does
not convert a method-of-execution challenge into an
attack on the death sentence itself. Pet. App. 82a.
Prisoners challenging a State’s only authorized method,
who necessarily must identify an alternative not
presently authorized under state law, still are not
challenging the validity of their death sentences, but

15
only the means by which the State has chosen to carry it
out. Pet. App. 83a-84a.
The dissenters thus found that “Nance did
everything he was supposed to: he made a colorable
claim, alleged sufficient facts, and proposed a viable
remedy in accordance with Bucklew.” Pet. App. 83a. Yet
“this decision would leave prisoners like Nance without
a remedy in federal court—no matter how cruel and
unusual the State’s authorized method of execution
might be. . . . [Those inmates] may be executed without
their constitutional claims ever making it past the
courthouse door.” Id.
REASONS FOR GRANTING THE PETITION
I. THE E LEVENTH CIRCUIT CREATED A CIRCUIT
SPLIT BY INCORRECTLY R ULING THAT M ETHODOF-E XECUTION CLAIMS LIKE NANCE’S M UST
PROCEED IN HABEAS.
A. The Circuits Are Split on the Proper
Procedural Vehicle for Claims Like Nance’s.
For over fifteen years, this Court has declined to
decide whether method-of-execution claims like Nance’s
must proceed in habeas, though it has strongly
suggested they should not. Last year, the Eleventh
Circuit felt compelled to decide the question itself, and
held that habeas is the sole vehicle for these claims. The
federal courts of appeals are now divided on this
important issue. Had Nance’s case arisen in the Sixth
Circuit, he could have brought his as-applied method-ofexecution challenge under § 1983, and his case would not
have been dismissed for lack of jurisdiction. In that
circuit, all method-of-execution claims must be brought

16
as § 1983 actions. By contrast, the Eleventh Circuit now
requires method-of-execution claims like Nance’s to be
raised in a habeas petition.
The Sixth Circuit holds that, even where a petitioner
asserts that all methods of execution authorized under a
State’s law are unconstitutional, that claim must be
brought via § 1983, not habeas. In re Campbell, 874 F.3d
454, 465-66 (6th Cir. 2017). In Campbell, the Sixth
Circuit considered a habeas petition contending that
lethal injection—the State’s only method of execution—
was unconstitutional. The Sixth Circuit held that that
claim had to be brought in a § 1983 action because, even
if the prisoner prevailed on the merits, “Ohio would still
be permitted to execute him”—“it would simply need to
find a method that comports with the Eighth
Amendment.” Id. at 465. Thus, the “proper method” for
Campbell to challenge “a particular method of execution
as applied to him” was a § 1983 action. Id. at 465-67. The
Sixth Circuit subsequently reaffirmed Campbell after
this Court’s decision in Bucklew. In re Smith, 806 F.
App’x 462, 464-65 (6th Cir. 2020) (“Whether an asapplied method-of-execution claim may be brought in
habeas is not implicated by the question presented
in Bucklew, its holding, or its primary legal reasoning.”).
Conversely, the Eleventh Circuit held below that
precisely the same claim at issue in Campbell—that
“any method of lethal injection, regardless of the
protocol,” would violate a prisoner’s constitutional
rights—must be reconstrued as a habeas petition. Pet.
App. 2a. “Lethal injection is necessary to carry out any
death sentence in Georgia,” the court explained,
“because lethal injection is the only method of execution

17
authorized under Georgia law.” Pet. App. 18a (citation
omitted). By preventing his execution from being
carried out under current law, the court determined that
the relief Nance sought necessarily implied the
invalidity of his sentence. Id. Consequently, according to
the court, his method-of-execution challenge was
cognizable only in habeas. Id.
Thus, the Sixth and Eleventh Circuits have taken
diametrically opposed positions. In the Sixth Circuit, a
Bucklew claim proposing a currently unauthorized
alternative execution method must be brought under
§ 1983. In the Eleventh Circuit, the same claim must be
brought under the habeas statutes, with their attendant
procedural limitations. And the split is entrenched: the
Sixth Circuit has recently reinforced its decision postBucklew, while the Eleventh Circuit has refused to
reconsider its decision en banc. Only this Court can
clarify whether method-of-execution claims alleging
currently unauthorized alternative methods are
properly brought under § 1983, or if instead the
challenge to a State’s authorized method(s)—and the
attendant identification of an unauthorized (though
feasible and available) alternative—converts the claim
to one cognizable exclusively in habeas.
B. The Eleventh Circuit’s Holding Contradicts
This
Court’s
Jurisprudence
on
the
Relationship Between Habeas and § 1983.
In reconstruing Nance’s § 1983 action as a habeas
petition, the Eleventh Circuit eroded the long-settled
distinction between these two avenues for relief.

18
This Court has set a clear dividing line between
habeas and § 1983. Since the Founding, the writ of
habeas corpus has been understood “simply [to]
provide[] a means of contesting the lawfulness of
restraint and securing release.” Dep’t of Homeland
Sec. v. Thuraissigiam, 140 S. Ct. 1959, 1969 (2020).
Habeas therefore is reserved for a state prisoner who
actually or constructively “challenges the fact or
duration of his confinement and seeks immediate or
speedier release.” Heck v. Humphrey, 512 U.S. 477, 481
(1994).1 Section 1983, by contrast, covers challenges to
the conditions of a prisoner’s confinement and of his
sentencing. Nelson, 541 U.S. at 643-45. In other words,
habeas is about whether or how long prisoners should
remain in custody; § 1983 is about how they are treated
while they are. Hence, a prisoner’s claim sounds
exclusively in habeas only if it “would necessarily imply
the invalidity of his conviction or sentence.” Heck, 512
U.S. at 487 (emphasis added). “Where the prisoner’s
claim would not ‘necessarily spell speedier release,’
however, suit may be brought under § 1983.” Skinner v.
Switzer, 562 U.S. 521, 525 (2011) (citation omitted).
A method-of-execution claim that does not dispute
the prisoner’s death sentence, but merely challenges
how it is carried out, falls plainly on the § 1983 side of
1

This Court has reiterated habeas’s limited scope time and time
again. See, e.g., Magwood v. Patterson, 561 U.S. 320, 332 (2010) (“A
§ 2254 petitioner is applying for something: His petition ‘seeks
invalidation (in whole or in part) of the judgment authorizing the
prisoner’s confinement.’” (citation omitted)); Harbison v. Bell, 556
U.S. 180, 183 (2009) (describing habeas as “a proceeding challenging
the lawfulness of the petitioner’s detention”).

19
this line. As Justice Scalia once put it: “[T]o say that the
habeas statute authorizes federal courts to order relief
that neither terminates custody, accelerates the future
date of release from custody, nor reduces the level of
custody . . . . would utterly sever the writ from its
common-law roots.” Wilkinson v. Dotson, 544 U.S. 74, 86
(2005) (Scalia, J., concurring). No court would rule that a
§ 1983 claim alleging dangerous prison conditions, for
instance, must be brought in habeas. See, e.g., Hope v.
Pelzer, 536 U.S. 730, 734-35 (2002). So, too, “a method-ofexecution claim must be brought under § 1983 because
such a claim does not attack the validity of the prisoner’s
conviction or death sentence.” Glossip, 576 U.S. at 879.
The Eleventh Circuit’s decision to the contrary
“require[s] [courts] to broaden the scope of habeas relief
beyond recognition.” Wilkinson, 544 U.S. at 85 (Scalia,
J., concurring). The decision invoked Bucklew’s crossreference to Hill about the possibility of habeas being
the appropriate vehicle for such claims. Pet. App. 11a.
But Hill reiterated that habeas could be appropriate
only if the claim “necessarily implies the invalidity of the
prisoner’s sentence,” Hill, 547 U.S. at 580. Nance does
not allege that his death sentence is invalid or that he
should be released. Nor does he seek to preclude
imposition of the death penalty by implying that all
possible methods to execute him are cruel and unusual.
To the contrary, he has explicitly identified the firing
squad as a constitutional means of execution. Pet. App.
101a-102a. In holding that Nance must nevertheless
bring his case through habeas, the panel “simply shrugs
off the language” from this Court’s prior opinions and
distorts the “ordinary meaning” of the habeas statutes.

20
Borden v. United States, 141 S. Ct. 1817, 1847 (2021)
(Kavanaugh, J., dissenting).
C. The Eleventh Circuit’s Rule Will Create
Jurisprudential and Practical Confusion.
Because habeas was not designed to reach cases that
only challenge a particular method of execution, it is an
awkward tool for the job. Courts will have immense
difficulty applying the Eleventh Circuit’s new rule,
which replaces an easily administrable line between
habeas and § 1983 with a hopelessly confused one.
As described above, the line that Heck drew, and that
Nelson and Hill followed, is clear: A method-ofexecution claim—like any claim raised by someone in
custody—should be brought in habeas only if it “would
‘necessarily imply’ the invalidity of the fact of an
inmate’s conviction, or ‘necessarily imply’ the invalidity
of the length of an inmate’s sentence.” Nelson, 541 U.S.
at 646; accord Heck, 512 U.S. at 487. Bucklew, in turn,
resolved that the Eighth Amendment allows prisoners
to bring method-of-execution claims even where the
prisoner’s State does not authorize the proffered lesspainful alternative. After all, “the Eighth Amendment is
the supreme law of the land,” and its standards “can’t be
controlled by the State’s choice of which methods to
authorize in its statutes.” Bucklew, 139 S. Ct. at 1128.
Together, these cases indicate that method-ofexecution claims, including those challenging a State’s
only authorized method, are properly brought under
§ 1983. Identifying an alternative execution method not
currently authorized by state statute does not
necessarily imply the prisoner’s sentence is invalid. Such

21
claims by their terms do not challenge the prisoner’s
sentence. Indeed, to have a hope of succeeding,
challengers must proffer a readily available means for
their own sentences to be carried out. This is the
standard the Sixth Circuit has adopted, and this is the
standard the Eleventh Circuit has spurned. Supra Part
I.A.
Once courts abandon this clear standard, it becomes
difficult to determine exactly when a method-ofexecution claim does or does not challenge the prisoner’s
underlying confinement or conviction. The Eleventh
Circuit’s effort only proves the point. The panel majority
held that “[a] complaint seeking an injunction against
the only method of execution authorized in a state must
be brought in a habeas petition.” Pet. App. 14a. Yet
under the Eleventh Circuit’s new rule, it will be difficult
for courts to determine when a claim involves
alternatives that are not “authorized in a state” and
therefore must be brought in habeas. Id.
For example, to reach its holding, the panel majority
had to distinguish prior circuit precedent holding that “a
[§] 1983 lawsuit, not a habeas proceeding, is the proper
way to challenge lethal injection procedures.” Pet. App.
12a (quotation marks omitted). Yet what if a State’s law
requires not just a particular method, such as lethal
injection, but also a particular procedure? For instance,
what would happen if a State’s lethal injection protocol
required particular dosages of each drug, and a prisoner
claims that he needs higher dosages of the initial
anesthetic to prevent unbearable pain? Would that count
as an unavailable alternative “method” not “authorized
in [the] state,” and thus subject to habeas? Pet. App. 14a.

22
Or would it be considered an alternative “lethal injection
procedure[],” subject to § 1983? Pet. App. 12a. Under
the Eleventh Circuit’s test, the answer is far from clear.
Moreover, the Eleventh Circuit’s test also fails to
specify clearly which sources of state law must be
considered. Say that a state statute were worded
broadly enough to allow a plaintiff’s proposed
alternative method of execution, but a state regulation
defined the general statutory standards in a manner that
precludes the alternative method. Would the prisoner’s
proposed alternative “prevent a state from
implementing a death sentence under its current law,”
and thus implicate habeas? Pet. App. 14a. Or could the
case proceed under § 1983 because it does not seek “an
injunction directing the State to either enact new
legislation or vacate his death sentence”? Pet. App. 19a
(emphasis added). As Judge Martin put it below, “[a]
prisoner can no longer be certain about the proper
procedure for bringing a method-of-execution claim.”
Pet. App. 35a.
II. THE E LEVENTH CIRCUIT’ S D ECISION CONFLICTS
W ITH D ECISIONS O F THIS COURT A ND OTHERS BY
HOLDING CLAIMS LIKE NANCE’S TO BE SECOND
OR SUCCESSIVE HABEAS PETITIONS.
The panel decision presents a companion question
that also warrants this Court’s review, to ensure that
the Court has the opportunity to address the full scope
of the decision below should the Court decide that
habeas is the appropriate procedural vehicle for these
claims.

23
As explained above, see supra at 12, after holding
that Nance’s complaint must be reconstrued as a habeas
petition, the Eleventh Circuit held that it was barred as
“second or successive” under 28 U.S.C. § 2244(b)(2). Pet.
App. 25a. The Eleventh Circuit also held that Nance’s
claim did not qualify for the exception to second-orsuccessive status for unripe claims that this Court
recognized in Panetti v. Quarterman, 551 U.S. 930
(2007). Pet. App. 20a-24a. In the Eleventh Circuit’s view,
that exception applies only to competency-to-beexecuted (“Ford”) claims. Pet. App. 23a-24a. That
holding is inconsistent with this Court’s precedent and
the precedent of other circuits, and it effectively closes
the courthouse doors to claims like Nance’s that were
not ripe at the time an initial habeas petition was filed.2
In Panetti, the Supreme Court held that “[t]he
phrase ‘second or successive’ is not self-defining,” and
“declined to interpret [it] as referring to all § 2254
applications filed second or successively in time, even
when the later filing addresses a state-court judgment
already challenged in a prior § 2254 application.” 551
U.S. at 943-44. Of particular relevance here, the Panetti
Court explained that it treated the phrase “second or
successive” as a term of art inapplicable to a Ford claim
2

Nance’s as-applied method-of-execution claim was unripe at the
time of his initial habeas petition in 2013. He alleged that it was not
until May 2019 that a prison medical technician alerted him to the
complications his veins would pose to an execution by lethal
injection, and that it was not until October 2019 that an
anesthesiologist examined him and confirmed the compromised
state of his veins and the consequent risks of a botched execution.
Pet. App. 93a-94a.

24
because of ripeness considerations. It held “that
Congress did not intend [for] the provisions of AEDPA
addressing ‘second or successive’ petitions to govern a
filing in the unusual posture presented here: a § 2254
application raising a Ford-based incompetency claim
filed as soon as that claim is ripe.” 551 U.S. at 945
(emphasis added); see also Stewart v. MartinezVillareal, 523 U.S. 637, 644-45 (1998) (holding that a
prisoner could bring a Ford challenge without triggering
the second-or-successive petition bar after the same
“claim was dismissed as premature” in the first habeas
petition “because his execution was not imminent and
therefore his competency to be executed could not be
determined at that time”).
The Court also considered the “practical effects” of
barring the Ford claim as second or successive,
“particularly . . . when petitioners ‘run the risk’ under
the proposed interpretation [of 2244(b)] of ‘forever
losing their opportunity for any federal review of their
unexhausted claims.’” Panetti, 551 U.S. at 945-46
(quoting Rhines v. Weber, 544 U.S. 269, 275 (2005)). The
Court noted that this exception was fully consistent with
AEDPA’s goals of “comity, finality, and federalism.” Id.
at 945; see also Stewart, 523 U.S. at 644 (“We believe that
respondent’s Ford claim here—previously dismissed as
premature—should be treated in the same manner as
the claim of a petitioner who returns to a federal habeas
court after exhausting state remedies.”).
As recently as last term, this Court affirmed the twopronged approach Panetti outlined. See Banister v.
Davis, 140 S. Ct. 1698, 1705-06 (2020). Far from limiting
the analysis to one genre of claim, like Ford competency-

25
to-be-executed suits, this Court reiterated that courts
must look both to “historical habeas doctrine and
practice” and to “AEDPA’s own purposes” to determine
“what qualifies as second or successive.” Id. First,
recognizing that the phrase “second or successive” is a
term of art “given substance in [the Court’s] prior
habeas corpus cases,” courts must “ask[] whether a type
of later-in-time filing would have ‘constituted an abuse
of the writ, as that concept is explained in [this Court’s]
pre-AEDPA cases.’” Id. (citation omitted). “If so, it is
successive; if not, likely not.” Id. at 1706. Second, courts
must “consider[] ‘the implications for habeas practice’ of
allowing a type of filing, to assess whether Congress
would have viewed it as successive.” Id. (citation
omitted). The Eleventh Circuit engaged in none of this
analysis. Instead, it flatly—and wrongly—held that
Panetti’s analytical framework applies only to Ford
claims. Pet. App. 23a-24a. That logic defies this Court’s
rulings.3

3

The Eleventh Circuit justified its decision by asserting that this
Court’s decision in Magwood v. Patterson, 561 U.S. 320 (2010),
cabined the holding of Panetti to the facts of that case. Pet. App.
22a-23a. Yet the Magwood majority said nothing about limiting
Panetti’s holding to Ford claims. And Justice Kennedy’s dissent,
which the Eleventh Circuit quotes for its assertion, id., also does not
support its holding. Rather, the question presented to the Court in
Magwood was whether an application is “second or successive”
when it challenges a new death sentence on grounds that could have
been raised against the initial death sentence. 561 U.S. at 329-30.
The Court held that, because Magwood was challenging an entirely
new judgment, the application was not second or successive, and
Section 2244(b) did not apply. Id. at 331-34. In any event, the

26
The Eleventh Circuit’s ruling also conflicts with
those of other courts of appeals. While the decision
below limited Panetti’s ripeness rationale to Ford
claims, other circuits have held that Panetti’s reasoning
applies broadly to claims whose factual basis did not
exist when the prisoner filed their initial habeas petition.
See, e.g., Garcia v. Quarterman, 573 F.3d 214, 222 (5th
Cir. 2009) (“If . . . the purported defect did not arise, or
the claim did not ripen, until after the conclusion of the
previous petition, the later petition based on that defect
may be non-successive.”); In re Bowling, No. 06-5937,
2007 WL 4943732, at *3 (6th Cir. Sept. 12, 2007) (petition
raising Atkins claim was not second or successive
because “the factual basis for this claim did not exist” at
the time of the first petition); Singleton v. Norris, 319
F.3d 1018, 1023 (8th Cir. 2003) (stating that “a habeas
petition raising a claim that had not arisen at the time of
a previous petition is not barred by § 2244(b) or as an
abuse of the writ,” and holding petition not second or
successive when it raised a claim that did not arise until
petitioner was subject to an involuntary medication
order and his execution date had been scheduled);
United States v. Buenrostro, 638 F.3d 720, 725 (9th Cir.
2011) (“Martinez and Panetti do not apply only to Ford
claims. Prisoners may file second-in-time petitions based
on events that do not occur until a first petition is
concluded.”); see also Brown v. Muniz, 889 F.3d 661, 670
n.7 (9th Cir. 2018) (citing pre-Panetti federal appeals
court cases from “outside the Ford context” that “have
recognized that unripe claims . . . are not subject to the
Eleventh Circuit completely ignored the broader inquiry this Court
again embraced in Banister only last year.

27
second or successive bar when properly raised in a
subsequent federal habeas petition”). The Eleventh
Circuit has thus declared itself an outlier in interpreting
Panetti’s scope.
III. R EVIEW IS NEEDED BECAUSE THE DECISION
BELOW E LIMINATES THE R IGHT THE COURT
CONFIRMED IN BUCKLEW.
By eliminating § 1983 as a vehicle, and then
restricting Panetti’s ripeness exception to AEDPA’s
second-or-successive habeas petition bar, the Eleventh
Circuit has eviscerated Bucklew’s promise that the
courthouse doors would not be closed to a method-ofexecution claim simply because a petitioner proposed an
alternative not currently permitted by state law. The
result is that, in the Eleventh Circuit, prisoners who
have valid Eighth Amendment claims—and who meet
Bucklew’s requirements for proposing an alternative
method of execution—will be executed without any
federal review via methods that pose an
unconstitutionally serious risk of severe pain.
Bucklew held that prisoners seeking to identify an
alternative method of execution under the Baze-Glossip
test are “not limited to choosing among those presently
authorized by a particular State’s law.” 139 S. Ct. at
1128. As a result, the Court concluded there was “little
likelihood that an inmate facing a serious risk of pain will
be unable to identify an available alternative.” Id. at
1128-29. “Importantly, all nine Justices . . . agree[d] on
that point.” Id. at 1136 (Kavanaugh, J., concurring).
Justice Kavanaugh wrote separately to “underscore”
and “emphasize [this] statement.” Id. As Justice
Kavanaugh noted, after the Court’s ruling, “an inmate

28
who contends that a particular method of execution is
very likely to cause him severe pain should ordinarily be
able to plead some alternative method of execution that
would significantly reduce the risk of severe pain.” Id.
The effect of Bucklew’s holding, as the Eleventh
Circuit recognized, was to make it easier for prisoners to
satisfy the Baze-Glossip test. See Pet. App. 10a. Yet the
Eleventh Circuit contravened both the intent and
reasoning of that decision when it held that having to
allege a currently unauthorized alternative method of
execution would deprive the court of jurisdiction.
Nearly every death row prisoner will, like Nance,
have already used their first habeas petition to challenge
alleged substantive or procedural errors in their trials.
Under the Eleventh Circuit’s holding, any subsequent
challenge will be subject to—and almost certainly fail—
the “stringent limits on second or successive habeas
applications.” Banister, 140 S. Ct. at 1703. Petitioners
must show either that a new rule of constitutional law
has been made retroactive, or that new evidence has
emerged proving that they are actually innocent. See 28
U.S.C. § 2244(b)(2).
Thus, under the panel majority’s rule, prisoners like
Nance will be left without a remedy in federal court—no
matter how cruel and unusual a State’s authorized
method of execution might be. What’s more, this
outcome occurs through no fault of the prisoners’ own:
they have no say in what methods the state legislature
does or does not authorize, and they cannot control when
their execution-related claims will ripen. A State could
easily foreclose such challenges by authorizing only a
single method of execution. Such a rule does not comport

29
with this Court’s assurances that “the burden of the
alternative-method requirement” is relatively low and
can “ordinarily” be overcome. Bucklew, 139 S. Ct. at
1136 (Kavanaugh, J., concurring).
The Eleventh Circuit’s decision to close the
courthouse doors will have severe effects. As of April
2021, the Eleventh Circuit housed over 22% of all people
on death row in the United States. See Death Row,
Death Penalty Info. Ctr., https://deathpenaltyinfo.org/
death-row/overview (last visited Sept. 16, 2021).
Moreover, seventeen states, as well as the federal
government and the U.S. military, presently authorize
only one method of execution: lethal injection. See
Authorized Methods by State, Death Penalty Info. Ctr.,
https://deathpenaltyinfo.org/executions/methods-ofexecution/authorized-methods-by-state (last visited
Sept. 16, 2021). Thus, if other circuits are allowed to
follow the Eleventh Circuit’s lead, a significant portion
of death-row inmates could see their challenges to lethal
injection dismissed on jurisdictional grounds. This even
if they can plead “an available alternative” from another
State, like (perhaps) “the firing squad.” Bucklew, 139 S.
Ct. at 1136 (Kavanaugh, J., concurring). Review is
merited to protect the fundamental interests of
prisoners seeking to vindicate their Eighth Amendment
rights.
***
The decision below creates a split of authority,
transgresses this Court’s jurisprudence on the
difference between § 1983 and habeas, and undermines
the very right that this Court agreed should be
protected in Bucklew: the right to bring a method-of-

30
execution challenge that relies on an alternative method
of execution not currently authorized by state law. The
Eleventh Circuit’s decision warrants review.
CONCLUSION
The Court should grant the petition for certiorari.
Respectfully submitted,
ANNA M. ARCENEAUX
CORY H. ISAACSON
GEORGIA RESOURCE
CENTER
104 Marietta Street NW
St. 260
Atlanta, GA 30303
LAURIE WEBB DANIEL
MATTHEW D. FRIEDLANDER
HOLLAND & KNIGHT LLP
1180 West Peachtree Street
Suite 1800
Atlanta, GA 30309

MATTHEW S. HELLMAN
Counsel of Record
NOAH B. BOKAT-LINDELL
JENNER & BLOCK LLP
1099 New York Avenue NW
Washington, DC 20016
(202) 639-6000
mhellman@jenner.com

APPENDIX

1a
Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-11393
________________________
D.C. Docket No. 1:20-cv-00107-JPB
MICHAEL NANCE,
Plaintiff-Appellant,
versus
COMMISSIONER, GEORGIA DEPARTMENT OF
CORRECTIONS, WARDEN, GEORGIA DIAGNOSTIC
AND CLASSIFICATION PRISON,
Defendants-Appellees.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(December 2, 2020)
Before WILLIAM PRYOR, Chief Judge, MARTIN and
LAGOA, Circuit Judges.
WILLIAM PRYOR, Chief Judge:
This appeal requires us to decide whether a methodof-execution claim that would have the necessary effect

2a
of preventing the prisoner’s execution should be brought
as a civil-rights action, 42 U.S.C. § 1983, or as a petition
for a writ of habeas corpus, 28 U.S.C. § 2254. Michael
Wade Nance argues that Georgia’s lethal-injection
protocol, as applied to his unique medical situation,
violates the Eighth Amendment and that the firing
squad is a readily available alternative. He sued under
section 1983 for an injunction to bar the State from
executing him by lethal injection—the only method of
execution under Georgia law. See Ga. Code § 17-10-38(a).
To be sure, the Supreme Court has permitted prisoners
to seek relief under section 1983 when a prisoner’s
proposed alternative method of execution “would have
allowed the State to proceed with the execution as
scheduled” under current state law.
Nelson v.
Campbell, 541 U.S. 637, 646 (2004).
But Nance
complains that the Constitution bars Georgia from
executing him by any method of lethal injection,
regardless of the protocol. The Supreme Court has
mentioned the possibility of a complaint like Nance’s on
three occasions and warned that it might not be
cognizable under section 1983. See Bucklew v. Precythe,
139 S. Ct. 1112, 1128 (2019); Hill v. McDonough, 547 U.S.
573, 582 (2006); Nelson, 541 U.S. at 644. We now decide
it is not. Because the injunction Nance seeks would
necessarily imply the invalidity of his death sentence, his
complaint must be reconstrued as a habeas petition.
And because that petition is second or successive, we
vacate and remand with instructions to dismiss for lack
of jurisdiction.

3a
I. BACKGROUND
In 1993, Nance went to a bank in Gwinnett County,
Georgia, pulled a ski mask over his face, threatened the
tellers with a gun, and left with two pillowcases full of
cash. After Nance got into his car, dye packs hidden in
the stolen cash exploded. He then decided to abandon
the vehicle. He crossed the street to a nearby liquor
store, where he found Gabor Balogh backing his car out
of a parking space. Nance ran around the front of
Balogh’s car, yanked open the door, and pointed his gun
at Balogh. As Balogh pleaded for his life, Nance pulled
the trigger and shot him dead.
A jury convicted Nance of murder in 1997, and he
was sentenced to death. He was resentenced to death
after a new sentencing trial in 2002, and the Georgia
Supreme Court affirmed that sentence on direct appeal.
The Georgia Supreme Court rejected his petition for
collateral relief in 2013. Nance then filed a federal
habeas petition, see 28 U.S.C. § 2254, and we affirmed
the order denying that petition.
Nance filed this civil-rights action, see 42 U.S.C.
§ 1983, on January 8, 2020, and alleged that the State’s
lethal-injection protocol was unconstitutional as applied
to him because of two medical issues. First, he alleged
that, due to his compromised veins, he would be
subjected to excruciating pain during attempts to
establish venous access for his execution, that he would
be subjected to painful leakage of the injection drug even
if venous access was established, and that the State’s
alternative methods to establish venous access would
not be performed humanely. Second, he alleged that his
use of gabapentin, a drug that he has been prescribed for

4a
his back pain since 2016, had altered his brain chemistry
in a way that would diminish the efficacy of the lethal
injection drug and leave him sensate and in extreme pain
during his execution. Nance alleged that death by firing
squad was a feasible and readily implemented
alternative method of execution that would significantly
reduce his substantial risk of severe pain. He sought a
declaratory judgment as well as “injunctive relief to
enjoin the [State] from proceeding with [his] execution
. . . by a lethal injection.”
The State moved to dismiss Nance’s complaint on
January 30, 2020. It argued that Nance’s claim was
untimely, that he failed in his complaint to allege
sufficient facts to support a plausible claim for relief, and
that he failed to exhaust his administrative remedies.
The district court granted the State’s motion to dismiss.
It concluded that Nance’s suit was untimely and that he
failed to state a claim for relief with respect to his
venous-access theory because he did not allege plausible
facts establishing that his compromised veins created
the requisite risk of suffering for a valid claim under the
Eighth Amendment. After Nance appealed, we directed
the parties to address at oral argument whether Nance’s
complaint should be reconstrued as a habeas petition
and, if so, whether it was second or successive.
II. STANDARD OF REVIEW
We are obligated to address subject-matter
jurisdiction sua sponte. Mallory & Evans Contractors
& Eng’rs, LLC v. Tuskegee Univ., 663 F.3d 1304, 1304
(11th Cir. 2011). A district court lacks subject-matter
jurisdiction over a state prisoner’s second or successive
petition for a writ of habeas corpus absent an order from

5a
the court of appeals authorizing it to consider the
petition. Williams v. Chatman, 510 F.3d 1290, 1295
(11th Cir. 2007).
III. DISCUSSION
To succeed in a method-of-execution challenge under
the Eighth Amendment, a prisoner “must show a
feasible and readily implemented alternative method of
execution that would significantly reduce a substantial
risk of severe pain and that the State has refused to
adopt without a legitimate penological reason.”
Bucklew, 139 S. Ct. at 1125 (citing Glossip v. Gross, 576
U.S. 863, 869–78 (2015), and Baze v. Rees, 553 U.S. 35, 52
(2008) (plurality opinion)). In most method-of-execution
challenges, prisoners satisfy the alternative-method
requirement of the Baze-Glossip test by alleging that
the State could make changes to its lethal-injection
protocol that would significantly reduce the prisoner’s
risk of pain. See, e.g., Jordan v. Comm’r, Miss. Dep’t of
Corr., 947 F.3d 1322, 1325 (11th Cir. 2020) (prisoners
alleged that single-injection protocol might reduce risk
of pain and was a known and available alternative to
State’s three-drug protocol). Nance takes a different
approach.
Nance alleges that death by firing squad is a feasible
and readily implemented alternative method of
execution, and he seeks an injunction barring the use of
lethal injection. But Georgia law authorizes execution
only by lethal injection. See Ga. Code § 17-10-38(a). It
is not necessarily fatal to the merits of Nance’s claim that
the State does not authorize his alleged alternative
method of execution. See Bucklew, 139 S. Ct. at 1128
(“[T]he Eighth Amendment is the supreme law of the

6a
land, and the comparative assessment it requires can’t
be controlled by the State’s choice of which methods to
authorize in its statutes.”). But a court considering the
merits of a complaint like Nance’s must “inquire into the
possibility that one State possessed a legitimate reason
for declining to adopt” the alleged alternative method.
Id. And alleging an alternative method of execution that
is not authorized by the State’s law not only complicates
the merits of a method-of-execution challenge; it has
procedural implications as well.
We divide our discussion of those procedural
implications in two parts. First, we explain that Nance’s
complaint must be reconstrued as a habeas petition
because an injunction preventing the State from
executing a prisoner under its present law necessarily
implies the invalidity of that prisoner’s sentence.
Second, we explain that Nance’s habeas petition is
second or successive and that the district court lacked
jurisdiction to consider it.
A. A Section 1983 Claim for Relief That Would
Prevent a State from Executing a Prisoner
Under Present Law Must be Reconstrued as a
Habeas Petition.
Two statutes establish the procedural landscape for
method-of-execution claims. Section 1983 authorizes “an
action at law, suit in equity, or other proper proceeding
for redress” against any person who, under color of state
law, “subjects . . . any citizen of the United States . . . to
the deprivation of any rights, privileges, or immunities
secured by the Constitution . . . .” 42 U.S.C. § 1983. This
general language covers Nance’s suit: the Eighth
Amendment secures the right not to be subjected to a

7a
“method of execution [that] cruelly superadds pain to
the death sentence.” Bucklew, 139 S. Ct. at 1125. But a
specific statute controls over a general one, Antonin
Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts § 28, at 183 (2012), and the
more-specific federal habeas statute, 28 U.S.C. § 2254,
provides an exclusive remedy when it applies, Preiser v.
Rodriguez, 411 U.S. 475, 490 (1973).
Prisoners challenging their convictions or the
duration of their sentences proceed exclusively through
habeas, and prisoners challenging the conditions of their
confinement proceed exclusively through section 1983.
“Congress has determined that habeas corpus is the
appropriate remedy for state prisoners attacking the
validity of the fact or length of their confinement, and
that specific determination must override the general
terms of [section] 1983.” Id. Because a prisoner’s
challenge to the fact of his conviction or duration of his
sentence falls at the “core of habeas corpus,” such a
challenge may not be brought in a complaint under
section 1983. Id. at 489. By contrast, a suit that does not
“seek[] a judgment at odds with [a prisoner’s] conviction
or . . . sentence” may be brought only under section 1983.
Muhammad v. Close, 540 U.S. 749, 754–55 (2004). “[A
section] 1983 action is a proper remedy for a state
prisoner who is making a constitutional challenge to the
conditions of his prison life, but not to the fact or length
of his custody.” Preiser, 411 U.S. at 499. In sum,
“[i]ssues sounding in habeas are mutually exclusive from
those sounding in a [section] 1983 action.” McNabb v.
Comm’r, Ala. Dep’t of Corr., 727 F.3d 1334, 1344 (11th
Cir. 2013).

8a
Situating method-of-execution claims in this
landscape presents a “difficult question.” Nelson, 541
U.S. at 644. Method-of-execution claims often fall in an
uncertain area near the line between section 1983 and
habeas, where “[n]either the ‘conditions’ nor the ‘fact or
duration’ label is particularly apt.” Id. The Supreme
Court has never held that a challenge to a method of
execution was not cognizable as a complaint under
section 1983. But the Court has repeatedly cautioned
that there could be a type of method-of-execution
challenge that would be cognizable only in habeas. And
this appeal concerns exactly that type of challenge. We
first review the guidance provided by the Supreme
Court before turning to the unanswered question
presented in this appeal.
The Supreme Court first considered the possibility
that a method-of-execution claim might be cognizable
only in habeas in Nelson v. Campbell, 541 U.S. 637.
Nelson involved a challenge, under section 1983, to the
contemplated use of a “cut-down” procedure to gain
access to a prisoner’s compromised veins for lethal
injection. Id. at 641–42. The State argued that the
prisoner’s complaint should be construed as a habeas
petition because, if successful, it would prevent the State
from carrying out his execution. Id. at 645. The Court
rejected that argument because the cut-down procedure
was not indispensable to the execution; in fact, the
prisoner had “alleged alternatives that, if they had been
used, would have allowed the State to proceed with the
execution as scheduled.” Id. at 646. But the Court
stated in dicta that some method-of-execution
challenges might still be cognizable only in habeas: “In a

9a
State . . . where the legislature has established lethal
injection as the preferred method of execution, a
constitutional challenge seeking to permanently enjoin
the use of lethal injection may amount to a challenge to
the fact of the sentence itself.” Id. at 644 (citation
omitted).
The Supreme Court revisited the boundary between
section 1983 and habeas in Hill v. McDonough, 547 U.S.
573. In Hill, a prisoner filed a complaint under section
1983 seeking an injunction to prevent the State from
proceeding with its planned lethal-injection protocol; he
alleged that the drug to be used for the first injection
was not a suitable anesthetic for the administration of
the second and third drugs. Id. at 578. The Supreme
Court reiterated its dicta in Nelson that “a
constitutional challenge seeking to permanently enjoin
the use of lethal injection may amount to a challenge to
the fact of the sentence itself.” Id. at 579 (quoting
Nelson, 541 U.S. at 644). But the prisoner in Hill
“concede[d] that other methods of lethal injection the
[State] could choose to use would be constitutional,” id.
at 580 (internal quotation marks omitted), and the State
did not argue that “granting [the prisoner’s] injunction
would leave the State without any other practicable,
legal method of executing [him] by lethal injection,” id.
Because “injunctive relief would not prevent the State
from implementing the sentence,” the Court said that
“the suit as presented would not be deemed a challenge
to the fact of the sentence itself” and that it was
cognizable under section 1983. Id. at 579–80. But the
Court left open the possibility that “recharacterizing a
complaint as an action for habeas corpus might be

10a
proper” in a method-of-execution challenge where “the
relief sought would foreclose execution.” Id. at 582.
The most recent guidance from the Court on the
question whether a method-of-execution claim may be
brought under section 1983 came last year in Bucklew v.
Precythe, 139 S. Ct. 1112. And the Court once again
repeated its warnings in Nelson and Hill. The main
holding of Bucklew was that as-applied challenges to a
method of execution, like facial challenges, under the
Eighth Amendment, must plead an alternative method
of execution. Id. at 1126 (citing Glossip, 576 U.S. at 878,
and Baze, 553 U.S. at 61). But, the Court noted, “[a]n
inmate seeking to identify an alternative method of
execution is not limited” by the Baze-Glossip test under
the Eighth Amendment “to choosing among those
presently authorized by a particular State’s law.” Id. at
1128. That concern was not implicated in Bucklew itself,
because the prisoner’s alleged alternative to lethal
injection was authorized under state law. Id. at 1121;
Mo. Rev. Stat. § 546.720. But it was nonetheless
important to clarify the point, because inferior courts—
including this one—had understood Baze and Glossip to
mean that the Eighth Amendment requires a prisoner to
“identify an alternative that is ‘known and available’ to
the state in question,” meaning that unauthorized
alternatives did not satisfy the test. Arthur v. Comm’r,
Ala. Dep’t of Corr., 840 F.3d 1268, 1317 (11th Cir. 2016)
(emphasis added), abrogated in part by Bucklew, 139 S.
Ct. 1112. Still, the Supreme Court made clear that the
Baze-Glossip test is not friendly to an “inmate [who] is
more interested in . . . delaying his execution” than in
“avoiding unnecessary pain.” Bucklew, 139 S. Ct. at

11a
1129. And to avoid opening the floodgates to abusive
litigation based on its clarification of the alternativemethod requirement, the Court cautioned that “existing
state law might be relevant to determining the proper
procedural vehicle for the inmate’s claim,” 139 S. Ct. at
1128, even if it had no bearing on the prisoner’s
substantive right under the Eighth Amendment.
And so, the Supreme Court made it clear in Nelson,
Hill, and Bucklew that it is an open question whether
section 1983 can support a claim that would “foreclose
the State from implementing [a] lethal injection
sentence under present law.” Hill, 547 U.S. at 583; see
also Bucklew, 139 S. Ct. at 1128 (relying on Hill). The
dissent says that we “assume the role of the Supreme
Court” by “anticipat[ing] that the Supreme Court has
overruled its own precedent.” Dissenting Op. at 29, 38.
But the Supreme Court was clear in Nelson, Hill, and
Bucklew that it has no precedent on this question to
overrule. The Supreme Court has left it for us to decide
in the first instance whether a claim for relief that would
prevent a state from implementing a death sentence
under its current law must be brought as a civil
complaint under section 1983 or as a habeas petition.
This appeal squarely presents that question.
Nance argues that circuit precedent establishes that
his claim is cognizable under section 1983 and that the
Supreme Court’s parenthetical in Bucklew is only “a
curiosity” that does not undermine that precedent. But
the decisions he cites are inapposite. Nance argues that
in McNabb, 727 F.3d 1334, we held that method-ofexecution challenges are never cognizable in habeas. We
disagree. McNabb involved a challenge to the State’s

12a
lethal-injection protocol based on the argument that “an
ineffective first drug or improper administration of a
first drug in a three-drug protocol would violate the
constitution.”
Id. at 1344.
That claim is
indistinguishable from the claim in Hill that the
Supreme Court allowed to proceed under section 1983.
547 U.S. at 578.
We explained in McNabb that “[u]sually, . . .
challenges [to] a state’s method of execution . . . [are] not
an attack on the validity of [a prisoner’s] conviction
and/or sentence,” 727 F.3d at 1344 (emphasis added), and
accordingly held that “a [section] 1983 lawsuit, not a
habeas proceeding, is the proper way to challenge lethal
injection procedures,” id. (alteration adopted) (emphasis
added) (internal quotation marks omitted). McNabb did
not announce a categorical rule for all method-ofexecution challenges; it addressed only challenges to
specific lethal injection procedures, and its holding
clearly left open the question this appeal presents.
Nance also argues that we considered a complaint
under section 1983 that would have prevented the State
from carrying out a death sentence under present law in
Ledford v. Commissioner, Georgia Department of
Corrections, 856 F.3d 1312 (11th Cir. 2017), but we never
considered whether the complaint should have been
construed as a habeas petition. Nance is correct that his
complaint is similar to the prisoner’s complaint in
Ledford; both Nance and Ledford argued that
gabapentin would have a bad interaction with the State’s
execution drug, id. at 1317, and both alleged the firing
squad as an alternative method of execution rather than
offer changes to the State’s injection protocol, id. at

13a
1317–18. But we did not hold in Ledford that a complaint
that would leave a State unable to carry out a death
sentence could be brought under section 1983.
We denied relief in Ledford for a multitude of
independently sufficient reasons: we concluded that the
prisoner’s complaint was untimely, id. at 1316; that he
did not establish a substantial risk of severe pain for his
substantive right under the Eighth Amendment, id. at
1317; that his firing-squad argument did not satisfy the
substantive requirement under the Eighth Amendment
that he plead an alternative method of execution that
was feasible and readily implemented under state law,
id. at 1317–18 (citing Arthur, 840 F.3d at 1315–18,
abrogated in part by Bucklew, 139 S. Ct. 1112); and that
he had not established entitlement to the equitable relief
requested in his last-minute challenge, id. at 1319. A
decision that does not catalog every independently
sufficient reason for denying relief does not create a
binding precedent with respect to the alternative
reasons it does not discuss. This rule is particularly
important in the context of an unaddressed jurisdictional
defect like lack of permission to file a second-orsuccessive habeas petition. 28 U.S.C. § 2244(b)(3)(A);
Lewis v. Casey, 518 U.S. 343, 352 n.2 (1996) (“[W]e have
repeatedly held that the existence of unaddressed
jurisdictional defects has no precedential effect.”).
Ledford’s silence on the prisoner’s use of section 1983
instead of habeas has no precedential effect.
We failed in Ledford to recognize the jurisdictional
error in allowing a prisoner to bring a section 1983 claim
that would have left the State unable to carry out his
death sentence because we believed—erroneously, as

14a
Bucklew later revealed—that no such claim even existed
under the Eighth Amendment as a matter of substantive
law. When we decided Ledford our precedents held that
the Eighth Amendment required prisoners to allege an
alternative method of execution authorized under state
law. See Arthur, 840 F.3d at 1316, abrogated in part by
Bucklew, 139 S. Ct. 1112.
Based on our
misunderstanding
of
the
alternative-method
requirement under Baze and Glossip, we ruled in
Ledford that the prisoner failed to state a claim because
his complaint did not allege an alternative method of
lethal injection, and that his firing-squad argument was
not a permissible alternative to doing so. Ledford, 856
F.3d at 1317–18 (citing Arthur, 840 F.3d at 1316). We do
not have a binding precedent establishing the proper
vehicle for a claim for relief that would prevent a state
from implementing a death sentence under its current
law.
A complaint seeking an injunction against the only
method of execution authorized in a state must be
brought in a habeas petition, because such an injunction
necessarily implies the invalidity of the prisoner’s death
sentence. “The line of demarcation between a [section]
1983 civil rights action and a [section] 2254 habeas claim
is based on the effect of the claim on the inmate’s . . .
sentence.” McNabb, 727 F.3d at 1344 (internal quotation
marks omitted). “[I]f the relief sought by the inmate
would either invalidate his conviction or sentence or
change the nature or duration of his sentence, the
inmate’s claim must be raised in a [section] 2254 habeas
petition, not a [section] 1983 civil rights action.”
Hutcherson v. Riley, 468 F.3d 750, 754 (11th Cir. 2006).

15a
Because Nance’s requested relief would prevent the
State from executing him, implying the invalidity of his
death sentence, it is not cognizable under section 1983
and must be brought in a habeas petition. This
conclusion follows from the decisions in Heck v.
Humphrey, 512 U.S. 477 (1994), and Edwards v. Balisok,
520 U.S. 641 (1997), in which the Supreme Court
distinguished between complaints under section 1983
and habeas petitions. Although the Heck line of cases
involved civil-rights actions for damages, the Supreme
Court has suggested that the logic of Heck also applies
in the context of method-of-execution challenges. In
both Nelson and Hill, the Supreme Court made clear
that its decision was “consistent with Heck’s and
Balisok’s approach to damages actions that implicate
habeas relief,” Hill, 547 U.S. at 583 (citing Nelson, 541
U.S. at 646–47), and suggested that the parallel analysis
between the two fields followed from the fact that “civil
rights damages actions . . . , like method-of-execution
challenges, fall at the margins of habeas,” Nelson, 541
U.S. at 646.
In Heck, the Supreme Court proceeded from the fact
“that [section] 1983 creates a species of tort liability,”
512 U.S. at 483 (internal quotation marks omitted), and
explained that the relationship of section 1983 to the
common law of torts comes with limitations on the kinds
of claims cognizable under it. Citing “the hoary principle
that civil tort actions are not appropriate vehicles for
challenging the validity of outstanding criminal
judgments,” id. at 486, the Court held that “when a state
prisoner seeks damages in a [section] 1983 suit, the
district court must consider whether a judgment in favor

16a
of the plaintiff would necessarily imply the invalidity of
his conviction or sentence” and, if so, dismiss the
complaint unless the plaintiff showed a favorable
termination of the underlying criminal proceeding, id. at
487. The Court clarified this principle in Balisok, where
it held that a “claim for declaratory relief and money
damages, based on allegations . . . that necessarily imply
the invalidity of the punishment imposed, is not
cognizable under [section] 1983.” 520 U.S. at 648.
In the light of the principle distilled in Heck and
Balisok, the Supreme Court in Hill described the
inquiry for determining whether a method-of-execution
claim is cognizable under section 1983 as being “whether
a grant of relief to the inmate would necessarily bar the
execution.” 547 U.S. at 583 (emphasis added). The word
“necessarily” is key to the Heck inquiry, and it explains
why Nance’s complaint is different from the prisoners’
complaints in Nelson and Hill. We have noted that the
concept of “logical necessity . . . is at the heart of the
Heck opinion,” Dyer v. Lee, 488 F.3d 876, 879 (11th Cir.
2007), and explained that this “emphasis on logical
necessity is a result of the Court’s underlying concern in
Heck: that [section] 1983 and the federal habeas corpus
statute . . . were on a collision course,” id. at 880 (internal
quotation marks omitted). The Heck inquiry prevents
prisoners from making “an ‘end-run’ around habeas,” but
when there is no necessary logical connection between
relief under section 1983 and the negation of a conviction
or sentence, there is no concern about an end-run and no
need to apply Heck. Id. Both Nelson and Hill are
examples of decisions that did not implicate the concern

17a
expressed in Heck about end-runs around the habeas
statutes.
The Supreme Court allowed the complaints under
section 1983 in Nelson and Hill to proceed because the
relief sought in each case did not necessarily imply the
invalidity of the prisoner’s death sentence, even if, as the
State argued in Hill, the claim would “frustrate the
execution as a practical matter.” 547 U.S. at 583. The
requested injunction against the use of a cut-down
procedure for venous access in Nelson, 541 U.S. at 641–
42, did not necessarily imply the invalidity of the
prisoner’s death sentence because the fact “[t]hat
venous access is a necessary prerequisite [to carrying
out a death sentence] does not imply that a particular
means of gaining such access is likewise necessary,” id.
at 645. The State could potentially carry out the death
sentence with a different method of venous access.
And the requested injunction against the use of an
allegedly inadequate anesthetic as part of the injection
protocol in Hill, 547 U.S. at 578, did not necessarily
imply the invalidity of the prisoner’s death sentence
because the “obvious necessity” of “the injection of
lethal chemicals” does not by itself mean that a
particular combination of drugs chosen by the State is a
necessary prerequisite to carrying out a death sentence,
id. at 581. That is, the injunction would not ban the state
from carrying out the death sentence using a different
injection protocol.
In this appeal, unlike in Nelson and Hill, a judgment
in Nance’s favor would imply the invalidity of his death
sentence—not only as a practical matter, but as a matter
of logical necessity. In his complaint, Nance asked the

18a
district court to “[g]rant injunctive relief to enjoin the
[State] from proceeding with [his] execution . . . by a
lethal injection.” Lethal injection is necessary to carry
out any death sentence in Georgia, because lethal
injection is the only method of execution authorized
under Georgia law. See Ga. Code § 17-10-38(a). Unlike
the injunctions in Nelson and Hill, the injunction Nance
seeks would prevent his execution from being carried
out, necessarily implying the invalidity of his death
sentence.
There is no way to read Nance’s complaint to avoid
the collision between section 1983 and habeas that the
Supreme Court contemplated in Heck, and given that
conflict, the specific terms of the habeas statute must
override the general terms of section 1983. See Preiser,
411 U.S. at 490. Habeas and section 1983 are mutually
exclusive. McNabb, 727 F.3d at 1344. And based on the
lines drawn by the Supreme Court in Heck, Nelson, and
Hill, Nance’s claim falls beyond the outer border of
section 1983 and is cognizable only in habeas.
To be sure, a judgment in Nance’s favor implies the
invalidity of his sentence as a matter of logical necessity
only if we take Georgia law as fixed. Even if Nance
prevails in this suit, the State could respond by enacting
a law authorizing execution by firing squad. And Nance
does not contest—at least for now—that the State could
constitutionally carry out his death sentence if it did so.
But section 1983 complaints are “civil tort actions,”
which means that they are not “appropriate vehicles for
challenging the validity of outstanding criminal
judgments.” Heck, 512 U.S. at 486. So it is not our place
to entertain complaints under section 1983 that ask us to

19a
force a State to fundamentally overhaul its system of
capital punishment. “[T]he Constitution affords a
‘measure of deference to a State’s choice of execution
procedures.’” Bucklew, 139 S. Ct. at 1125 (quoting Baze,
553 U.S. at 52 n.2).
For purposes of determining whether a method-ofexecution challenge sounds in section 1983 or habeas, a
federal court must accept as fixed a state law providing
a facially constitutional method of execution. That is
particularly so when a would-be section 1983
complainant insists that the State resort to a method of
execution that it has already determined is less humane
than the alternatives. See id. at 1128 (“[A] court [must]
inquire into the possibility that one State possessed a
legitimate reason for declining to adopt the protocol of
another.”). If we sanction Nance’s decision to proceed
under section 1983 by refusing to take the State’s law as
fixed, we must effectively interpret Nance’s complaint
as a request for an injunction directing the State to
either enact new legislation or vacate his death sentence.
By doing so, we invite a collision with more than the
habeas statute. Cf. New York v. United States, 505 U.S.
144, 188 (1992).
No matter how you read it, Nance’s complaint
attacks the validity of his death sentence. It is
cognizable only as a habeas petition, and we must
evaluate it as such.
B. Nance’s Petition is Second or Successive.
Because Nance’s complaint is a habeas petition, we
must determine whether it is second or successive.
When a prisoner effectively, even if not formally, raises

20a
a new habeas claim without first obtaining this Court’s
permission to file a second or successive petition, the
district court lacks subject-matter jurisdiction to
consider the petition. Franqui v. Florida, 638 F.3d 1368,
1375 (11th Cir. 2011). Nance did not move this Court for
permission to file his petition, so the district court lacked
jurisdiction if the petition was second or successive. See
28 U.S.C. § 2244(b)(3)(A).
Under the normal rule, Nance’s petition is second or
successive. See Patterson v. Sec’y, Fla. Dep’t of Corr.,
849 F.3d 1321, 1325 (11th Cir. 2017). Nance already
brought a habeas petition contesting his death sentence.
Nance v. Warden, Ga. Diagnostic Prison, 922 F.3d 1298
(11th Cir. 2019). As we have explained above, he
effectively contested the validity of that sentence a
second time when he brought this section 1983 action.
Because Nance did not move this Court for permission
to file a second or successive petition, section 2244(b)
required the district court to dismiss the suit for lack of
jurisdiction. Even if Nance had asked us to allow his
second or successive petition, we could not have done so
because the petition does not satisfy either of the
requirements of section 2244(b)(2). Nance’s petition
does not rely on a new rule of constitutional law made
retroactive to his case by the Supreme Court, 28 U.S.C.
§ 2244(b)(2)(A), nor is it predicated on newly discovered
facts establishing that no reasonable factfinder could
have found him guilty, id. § 2244(b)(2)(B).
Nance argues that a different second-or-successive
rule controls as-applied method-of-execution claims, and
that his petition is not second or successive because he
filed it as soon as his claim was ripe. He relies primarily

21a
on the Supreme Court’s decision in Panetti v.
Quarterman, 551 U.S. 930 (2007). In Panetti, a prisoner
filed a habeas petition raising issues about his
competency to stand trial and waive his right to counsel,
but not his competency to be executed. Id. at 937. Those
claims were denied. Id. He later filed another habeas
petition in which he argued that he was insane and,
therefore, not competent to be executed under Ford v.
Wainwright, 477 U.S. 399 (1986). Panetti, 551 U.S. at
934–35, 938. The State argued that because the
prisoner’s first habeas petition failed to raise a Ford
claim, his second-in-time petition—which did raise a
Ford claim—was second or successive. Id. at 942. The
Supreme Court rejected the State’s interpretation of
section 2244 because it would put prisoners in the
position of either “forgo[ing] the opportunity to raise a
Ford claim in federal court[,] or rais[ing] the claim in a
first federal habeas application . . . even though it [would
be] premature.” Id. at 943. The Court reasoned that
“Congress did not intend the provisions of [the
Antiterrorism and Effective Death Penalty Act]
addressing ‘second or successive’ petitions to govern a
filing in the unusual posture presented [by] a [section]
2254 application raising a Ford-based incompetency
claim filed as soon as that claim is ripe,” id. at 945, and it
held that “[t]he statutory bar on ‘second or successive’
applications does not apply to a Ford claim brought in an
application filed when the claim is first ripe,” id. at 947.
As we have observed, “the [Supreme] Court was
careful to limit its holding [in Panetti] to Ford claims.”
Tompkins v. Sec’y, Dep’t of Corr., 557 F.3d 1257, 1259
(11th Cir. 2009). But Nance says that this appeal is

22a
indistinguishable from Panetti because his petition also
involves a challenge based on facts existing at the time
of a contemplated execution and brought as soon as that
claim was ripe. Nance’s reliance on Panetti assumes
that the decision established a rule that a prisoner is
entitled to one full and fair opportunity to challenge his
sentence through habeas, and that the accrual of a new
challenge entitles him to a new opportunity to file a
petition.
The Supreme Court rejected Nance’s reading of
Panetti in Magwood v. Patterson, 561 U.S. 320 (2010). In
Magwood, a prisoner was sentenced to death at a second
sentencing trial after successfully challenging his
original death sentence through habeas. Id. at 326. He
filed another habeas petition, which was dismissed as
second or successive because it challenged an alleged
error repeated in the first and second sentencing trials
that could have been challenged in the first habeas
petition. Id. at 328–29. The Supreme Court reversed,
id. at 343, reasoning that the “first [habeas petition]
challenging [a] new judgment cannot be ‘second or
successive’ such that [section] 2244(b) would apply,” id.
at 331. Four dissenters objected that the Court’s opinion
did not apply the rule in Panetti as they understood it:
that “to determine whether an application is ‘second or
successive,’ a court must look to the substance of the
claim the application raises and decide whether the
petitioner had a full and fair opportunity to raise the
claim in the prior application.” Id. at 345 (Kennedy, J.,
dissenting). But the Court did more than just apply a
different rule. In fact, the Court’s opinion explicitly

23a
rejected the “full and fair opportunity” interpretation of
section 2244(b) that Nance would extract from Panetti.
Nance and the Magwood dissenters’ “full and fair
opportunity” interpretation of Panetti, the Court
explained, leads to “fundamental error.” Id. at 335.
“Under the . . . ‘one opportunity’ rule, . . . the phrase
‘second or successive’ would not apply to a claim that the
petitioner did not have a full and fair opportunity to raise
previously.” Id. (emphasis omitted). That result is
erroneous, the Court recognized, because the language
of section 2244 describes petitions with claims based on
intervening caselaw or newly discovered facts as second
or successive. See 28 U.S.C. § 2244(b)(2). And it does so
despite the fact that “[i]n either circumstance, a
petitioner cannot be said to have had a prior opportunity
to raise the claim,” Magwood, 561 U.S. at 335, which
would make them not second or successive under a “one
opportunity” rule. The “full and fair opportunity”
reading of Panetti is foreclosed by the text of the
statute. Magwood did not directly undermine Panetti by
deciding that a “[habeas petition] challenging the same
state-court judgment must always be second or
successive.” Id. at 335 n.11. But the Court did reject a
broad reading of Panetti’s exception to the second-orsuccessive bar in section 2244, and the Magwood
dissenters lamented that, in doing so, the Court
“confin[ed] the holding of Panetti to the facts of that
case.” Id. at 350 (Kennedy, J., dissenting).
Panetti’s holding is tailored to the context of Ford
claims. And because the considerations informing the
Supreme Court’s adoption of the rule in that context do
not obtain in the context of as-applied method-of-

24a
execution challenges, we do not extend Panetti in this
appeal. Panetti was motivated by a desire to avoid
putting prisoners in the position of either “forgo[ing] the
opportunity to raise a Ford claim in federal court[,] or
rais[ing] the claim in a first federal habeas application . . .
even though it [would be] premature.” Panetti, 551 U.S.
at 943. That concern is far more serious in the Ford
context than it is in the context of an as-applied methodof-execution claim. A Ford claim always challenges the
fact of a death sentence itself, see Ford, 477 U.S. at 410
(“The Eighth Amendment prohibits the State from
inflicting the penalty of death upon a prisoner who is
insane.”), and must therefore be brought in a habeas
petition and never under section 1983, see Nelson, 541
U.S. at 643 (“[Section] 1983 must yield to the more
specific federal habeas statute . . . where an inmate seeks
injunctive relief challenging the fact of his conviction or
the duration of his sentence.”). Without the ability to file
an additional habeas petition, a prisoner whose mental
health deteriorates after his first habeas petition has no
way to bring a Ford claim in federal court. In contrast,
a prisoner whose physical health deteriorates following
his first habeas petition may rely on section 1983 to
minimize the risk of pain during his execution—with the
caveat that he seek relief designed to accommodate his
state’s authorized methods of execution to his unique
health factors instead of an injunction that would
effectively serve as a permanent stay of his execution.
Nance could have filed a complaint under section
1983 to demand changes to the State’s lethal-injection
protocol that would accommodate his weak veins and
past gabapentin usage and thus mitigate the risk of a

25a
needlessly painful execution. Instead, he demanded
death by firing squad and dared the legislature to call his
bluff. Applying the normal test for a second or
successive habeas petition instead of the special Panetti
rule does not prevent any prisoner from bringing a
method-of-execution challenge in federal court—
“assuming, of course, that [he] is more interested in
avoiding unnecessary pain than in delaying his
execution.” Bucklew, 139 S. Ct. at 1129. The fact that
the Antiterrorism and Effective Death Penalty Act
prevents prisoners from bringing second or successive
petitions designed to undermine the effectiveness of the
death penalty is part of the statutory design, not a
justification for extending Panetti.
The ordinary meaning of a second or successive
petition applies in this appeal. Nance already challenged
his death sentence in habeas once. This petition is
second or successive, and the district court should have
dismissed it for lack of jurisdiction under section 2244(b).
IV. CONCLUSION
We VACATE the order dismissing Nance’s
complaint as untimely and REMAND with instructions
to dismiss for lack of jurisdiction.

26a
MARTIN, Circuit Judge, dissenting:
Michael Wade Nance is a Georgia prisoner who has
been sentenced to die for his crime. Georgia law
establishes a protocol for taking Mr. Nance’s life by
lethal injection. For death penalty cases, one would
expect federal courts to respect precedent and deliver
predictability. Yet the majority’s ruling offers chaos
instead—not only for Mr. Nance, but for everyone on
death row in Georgia, Alabama, and Florida. This
opinion creates chaos because it plainly violates at least
two principles firmly established by Supreme Court and
Eleventh Circuit precedent. Specifically the majority
opinion violates the well-established principles from our
precedent that: (1) require method of execution claims to
be brought as claims pursuant to 42 U.S.C. § 1983; and
(2) instruct federal courts of appeals not to anticipate
that the Supreme Court has overruled its own
precedent, but instead to wait for the Court to expressly
tell us it has done so. Surely it is the role of the courts to
provide predictable and reliable processes for those
facing their death at the hands of the State. We have
failed to perform that role here.
Mr. Nance brought suit under 42 U.S.C. § 1983
seeking to have the District Court order the Defendants,
the Commissioner of the Georgia Department of
Corrections and the Warden of Georgia Diagnostic and
Classification Prison, not to execute him using Georgia’s
current execution policies, because doing so would
violate his Eighth and Fourteenth Amendment rights.
Mr. Nance alleges there is a substantial risk that
executing him according to Georgia’s lethal injection
protocol will “lead[] to a prolonged execution that will

27a
produce excruciating pain” because his veins are
“extremely difficult to locate through visual
examination, and those veins that are visible are
severely compromised and unsuitable for sustained
intravenous access.”
Notably, the mistakes with Mr. Nance’s case did not
begin in our court. The District Court dismissed Mr.
Nance’s complaint under Federal Rule of Civil
Procedure 12(b)(6), which requires a court to accept all
factual allegations in the complaint as true and “draw all
reasonable inferences in the plaintiff’s favor.” West v.
Warden, Comm’r, Ala. DOC, 869 F.3d 1289, 1296 (11th
Cir. 2017) (applying Rule 12(b)(6) standard to § 1983 suit
challenging the constitutionality of Alabama’s lethal
injection protocol). The District Court did quite the
opposite here, conducting its own evaluation of Mr.
Nance’s claims and finding, for example, that his claims
were “false.” When this type of mistake happens in a
district court, Eleventh Circuit precedent requires this
Court to conduct a de novo review to determine whether
the plaintiff has alleged facts that, if true, would state a
method of execution claim (and, if so, reverse the
District Court’s dismissal). See id. at 1300–01. Yet Mr.
Nance has not received the benefit of this wellestablished process.
It is from this obvious error made by the District
Court that Mr. Nance appealed. But rather than litigate
this issue as expected, the lawyers handling this case
were seemingly blindsided by a direction from this
Court to be prepared to answer whether Mr. Nance
properly brought his claim under § 1983, or whether his
claim “amount[s] to a challenge to the fact of his sentence

28a
itself that must be reconstrued as a habeas petition.”
Counsels’ surprise was evidenced, for example, by a
statement from counsel for Georgia who told us,
“candidly,” at oral argument, that “this was a situation
that until we got this order from the Court, we had – we
had grown accustomed to dealing with these in [§] 1983.”
See Oral Argument Recording at 26:58–27:32 (Oct. 14,
2020). Mr. Nance and his attorneys rose to this
unexpected challenge and offered several examples of
why construing Nance’s claim as a habeas petition is
error under Eleventh Circuit precedent. See id. at
12:45–15:06. Nevertheless the majority opinion departs
from our precedent. The majority justifies its disregard
for precedent by saying the Supreme Court has
“mentioned the possibility” that a complaint like Mr.
Nance’s “might not be cognizable” under § 1983. See
Maj. Op. at 2.
I regret that I must dissent in what should have been
a case we easily remanded to the District Court so it
could correct its errors.
I.
Georgia law provides that the single method for
executing death row prisoners is lethal injection. See
O.C.G.A. § 17-10-38(a). On its own, the majority raised
the issue of whether Mr. Nance’s § 1983 claim
challenging Georgia’s lethal injection protocol is actually
a challenge to the fact of his sentence such that it must
be construed as a habeas petition. The correct answer is
a resounding no. Mr. Nance is not saying he should not
be executed. He has apparently accepted his fate.
Rather, he is merely asking our court to direct the State

29a
to execute him by a different method because the State’s
lethal injection method violates his constitutional rights.
The majority opinion makes several related errors in
ruling on Mr. Nance’s action that result in the creation
of a new category of cases—subject to new procedural
rules—not recognized by the Supreme Court. The
majority does away with the established line of
demarcation between a § 1983 civil rights action and a
habeas petition. See Maj. Op. at 15–20. In doing so, it
calls this Court’s decision in Ledford v. Commissioner,
Georgia Department of Corrections, 856 F.3d 1312 (11th
Cir. 2017), “erroneous[],” and proceeds to dismiss
Ledford’s substantive analysis in an effort to support its
procedural conclusion. Maj. Op. at 15; see id. at 13–15.
But for all the majority’s talk of distinguishing the
substantive requirements of Eighth Amendment claims
from the rights and remedies in § 1983 actions, the
majority can point to no concrete holding—in any
decision by the Supreme Court or this Circuit—that
supports today’s decision requiring Mr. Nance to bring
his Eighth Amendment method-of-execution claim by
way of a habeas petition.
A. MR. NANCE HAS ALLEGED A FEASIBLE,
READILY IMPLEMENTED ALTERNATIVE
METHOD FOR HIS EXECUTION UNDER
BUCKLEW.
To begin, the Supreme Court’s ruling in Bucklew
does not support the majority’s holding that Mr. Nance’s
claim must be brought in a habeas petition. Neither does
any other Supreme Court case. To the contrary, ample
binding precedent compels us to conclude that method of
execution claims must be brought in a § 1983 action. See,

30a
e.g., Nelson v. Campbell, 541 U.S. 637, 642, 124 S. Ct.
2117, 2122 (2004) (reversing this Court’s holding “that
§ 1983 claims challenging the method of execution
necessarily sound in habeas”); Hill v. McDonough, 547
U.S. 573, 576, 578, 126 S. Ct. 2096, 2100–01 (2006)
(reversing this Court’s holding that the § 1983 action was
a successive habeas petition because the suit was
“comparable in its essentials” to Nelson); Baze v. Rees,
553 U.S. 35, 52, 128 S. Ct. 1520, 1532 (2008) (plurality
opinion) (holding that in a § 1983 action, plaintiffs are
required to plead and prove a known and available
alternative in order to state an Eighth Amendment
claim); Glossip v. Gross, 576 U.S. 863, 879, 135 S. Ct.
2726, 2738 (2015) (characterizing Hill as holding “that a
method-of-execution claim must be brought under § 1983
because such a claim does not attack the validity of the
prisoner’s conviction or death sentence”); Tompkins v.
Sec’y, Dep’t of Corr., 557 F.3d 1257, 1261 (11th Cir. 2009)
(per curiam) (“A § 1983 lawsuit, not a habeas proceeding,
is the proper way to challenge lethal injection
procedures.”); Valle v. Singer, 655 F.3d 1223, 1229 n.6
(11th Cir. 2011) (per curiam) (affirming District Court’s
finding that “Valle challenges the constitutionality of the
execution procedure he is scheduled to undergo. Such
challenges are appropriately brought under § 1983.”);
Boyd v. Warden, Holman Corr. Facility, 856 F.3d 853,
865 (11th Cir. 2017) (“Following Nelson and Hill, we
have entertained method-of-execution challenges to
specific aspects of a state’s lethal injection protocol
pursuant to § 1983.”). Even in the face of all of this
precedent, the majority opinion relies on dicta in
Bucklew to reach the opposite conclusion.

31a
Bucklew did two things. It affirmed that a person
bringing a method of execution claim—whether a facial
challenge or an as-applied challenge—must meet the
requirements set out by the Supreme Court in BazeGlossip. Bucklew, 139 S. Ct. at 1122, 1129. To that end,
Bucklew said that a prisoner “seeking to identify an
alternative method of execution [under the Baze-Glossip
test] is not limited to choosing among those [methods of
execution] presently authorized by a particular State’s
law.” Id. at 1128 (emphases added). Instead, “a prisoner
may point to a well-established protocol in another State
as a potentially viable option.” Id. In this way, the
Supreme Court gave substantive guidance in Bucklew
for what is required to state a method of execution claim.
It said “the Eighth Amendment is the supreme law of
the land, and the comparative assessment it requires
can’t be controlled by the State’s choice of which
methods to authorize in its statutes.” Id. “In light of
this,” and recognizing that the burden to show this prong
is often “overstated,” the Supreme Court saw “little
likelihood that an inmate facing a serious risk of pain will
be unable to identify an available alternative.” Id. at
1128–29.
Of course, Bucklew also said that “existing state law
might be relevant to determining the proper procedural
vehicle for the inmate’s claim.” Id. at 1128 (emphasis
added). On this topic, it cited Hill and referenced, in a
parenthetical, the idea that “if the relief sought in a 42
U.S.C. § 1983 action would ‘foreclose the State from
implementing the [inmate’s] sentence under present
law,’ then ‘recharacterizing a complaint as an action for
habeas corpus might be proper.’” Id. (alteration in

32a
original) (quoting Hill, 547 U.S. at 582–83, 126 S. Ct. at
2103). The majority opinion, and the resulting loss of this
appeal by Mr. Nance, is based on this obscure reference
in Bucklew.
Yet nothing in Bucklew, nor in any other Supreme
Court case I am aware of, says that when a plaintiff
points to an alternative method of execution not
expressly codified under state law, that plaintiff’s case
must sound in habeas.1 The Supreme Court has simply
never ruled that method-of-execution claims must—or
even should—be brought by way of a habeas petition.
Nevertheless the majority appears to have carved out a
new procedural requirement based on this parenthetical
citation in Bucklew. In so doing, the majority ignores at
least two key principles. First, courts may not anticipate
that the Supreme Court will overrule its own precedent.
Second, Bucklew (parenthetical included) does not
require method-of-execution claims to be brought in
habeas.
Neither does the majority’s opinion appropriately
account for this Circuit’s test for determining whether a
claim is properly brought in a civil action or in a habeas
1

A plurality of the Supreme Court could have done so in Baze, when
the plaintiff challenged Kentucky’s method of execution, which
statutorily required death sentences “be executed by continuous
intravenous injection of a substance or combination of substances
sufficient to cause death.” Ky. Rev. Stat. Ann. § 431.220(1)(a); see
553 U.S. at 44, 128 S. Ct. at 1527–28. Yet Baze said nothing at all
about habeas. See id. at 56, 128 S. Ct. at 1534 (holding that
Kentucky’s failure to adopt the proposed alternatives does not, by
itself, demonstrate that the execution procedure is cruel and
unusual).

33a
petition. Our Circuit precedent has set the “line of
demarcation between a § 1983 civil rights action and a
§ 2254 habeas claim.” Hutcherson v. Riley, 468 F.3d 750,
754 (11th Cir. 2006). That precedent called upon this
panel to look at the effect Mr. Nance’s claim will have on
his sentence. We are required to ask, on the one hand,
does Mr. Nance seek to invalidate his conviction or
sentence, or to change the nature or duration of his
sentence? Id.; see also Magwood v. Patterson, 561 U.S.
320, 332, 130 S. Ct. 2788, 2797 (2010) (“A § 2254 petitioner
is applying for something: His petition seeks invalidation
(in whole or in part) of the judgment authorizing the
prisoner’s confinement.” (quotation marks and
emphases omitted)); Edward v. Balisok, 520 U.S. 641,
648, 117 S. Ct. 1584, 1589 (1997) (explaining that only
those claims that “necessarily imply the invalidity of the
punishment imposed” are not cognizable under § 1983
(emphasis added)). Or on the other hand, does Mr.
Nance seek to change the “‘circumstances of his
confinement’”? Hutcherson, 468 F.3d at 754 (quoting
Hill, 547 U.S. at 579, 126 S. Ct. at 2101). For me, the
remedy Mr. Nance seeks best fits into the category of
one relating to the circumstances of his confinement. He
simply is not seeking to “invalid[ate] a particular death
sentence.” See Johnson v. Bredesen, 558 U.S. 1067, 130
S. Ct. 541, 543 (2009) (mem.) (Stevens, J., respecting the
denial of certiorari). Mr. Nance does not challenge or
dispute that the State can go forward with his execution.
He is asking that it do so “‘by simply altering its method
of execution.’” Id. (quoting Nelson, 541 U.S. at 644, 124
S. Ct. at 2123).

34a
When properly applied to Mr. Nance’s case, the “line
of demarcation” test is fatal to the analysis in the
majority opinion. But the majority makes almost no
effort to analyze Mr. Nance’s case in this way. Rather,
it summarily concludes that because Mr. Nance pointed
to an alternative method of execution authorized by
other states, we must interpret his complaint “as a
request for an injunction directing the State [of Georgia]
to either enact new legislation or vacate his death
sentence,” which “would prevent the State from
executing him.” See Maj. Op. at 16, 21. Mr. Nance’s case
is not the one portrayed by the majority.
B. THE MAJORITY OPINION CREATES A NEW
PROCEDURE FOR BRINGING A METHOD-OFEXECUTION CLAIM.
The majority seems to assume the role of the
Supreme Court here, because it creates new
requirements for method-of-execution claims. Again, it
does this despite the precedent I’ve cited that requires
these claims to be brought in a § 1983 action. See
Agostini v. Felton, 521 U.S. 203, 237, 117 S. Ct. 1997,
2017 (1997) (“[I]f a precedent of this Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls,
leaving to this Court the prerogative of overruling its
own decisions.” (quotation marks omitted)); Evans v.
Sec’y, Fla. Dep’t of Corr., 699 F.3d 1249, 1264 (11th Cir.
2012) (“[W]e have always been careful to obey the
supreme prerogative rule and not usurp the Supreme
Court’s authority to decide whether its decisions should
be considered overruled.”). The State of Georgia was

35a
not the one to suggest Mr. Nance’s case requires this
new procedure. See Oral Argument Recording at 26:58–
27:32. Indeed, Georgia acknowledged that the issue (of
whether a method-of-execution claim should be brought
in a habeas petition) was not before the Supreme Court
in Bucklew. See id. As if more support were needed,
this underscores how the majority has acted with an
absence of precedent to support its ruling. The job of our
panel was to read the plain language of Bucklew and
apply it as binding precedent, like this Court has done in
so many cases before. Instead, the panel itself raised a
new issue for Mr. Nance’s case—theorizing a novel
outcome before the parties had even argued their case.
As a result, method-of-execution claims must now be
handled differently in this Circuit. And as for Mr.
Nance, this panel has deprived him of a claim he had
every right to pursue. With this loss, Mr. Nance’s
execution will arrive more swiftly, and without his
method-of-execution claims ever having been examined
beyond a mere read of his pleadings.
Neither does Mr. Nance’s case offer up such a unique
set of facts that we must depart from the analysis both
this Court and the Supreme Court have applied in every
previous method-of-execution case. And today’s ruling
disturbs a well-settled rule of law in a way that does not
clarify, but instead harms existing Supreme Court
precedent. The majority opinion will sow confusion. A
prisoner can no longer be certain about the proper
procedure for bringing a method-of-execution claim.
The majority’s holding will also invite new litigation—if
a plaintiff’s attorney previously brought a method of
execution claim in a § 1983 suit, will the attorney now be

36a
found to have been ineffective? I know of no basis for
this panel to take the drastic action of holding that Mr.
Nance’s claim should have been brought in a habeas
petition when no Supreme Court precedent directs him
to.
The majority arrives at its novel ruling in part by
describing why this Court’s decision in Ledford, 856 F.3d
1312, has no bearing on Mr. Nance’s case. See Maj. Op.
at 13–15. To begin, there is very little difference
between Mr. Nance’s case and Mr. Ledford’s case.
Ledford was based on similar facts and had the same
procedural posture now before us in Mr. Nance’s case.
See id. at 13–14 (acknowledging that Mr. Nance’s
allegations are similar to those in Ledford). Mr. Ledford
filed suit under § 1983, alleging “that, because he has
taken gabapentin for a decade,” the dose of
pentobarbital required by Georgia’s lethal injection
protocol would “not render him insensate quickly
enough and that he will suffer serious pain during the
execution.” Ledford, 856 F.3d at 1316. Mr. Nance
alleged the same facts in addition to his allegations that
his veins are too compromised to be executed by lethal
injection. The Ledford court recognized that the lethal
injection protocol challenged by Mr. Ledford was
required by Georgia law. Id. at 1315 (“In October 2001,
Georgia adopted lethal injection as its method of
execution.” (citing O.C.G.A. § 17-10-38(a)). And it is
worth noting that the Ledford court also recognized that
Mr. Ledford had not alleged that an alternative method
of lethal injection would substantially reduce his risk of
severe pain. Id. at 1317–18. Rather, Mr. Ledford, like
Mr. Nance, alleged that a firing squad is a feasible and

37a
readily implemented method of execution in Georgia
that would reduce his risk of severe pain. Id. at 1318.
Like Mr. Nance, Mr. Ledford brought his claim under
§ 1983. In contrast to Mr. Nance, Mr. Ledford suffered
no ill effects for failing to bring his claim in a habeas
petition. Mr. Ledford’s panel simply applied wellestablished precedent to hold that he was tardy in
bringing his claims about the interaction of gabapentin
and pentobarbital as applied to him because he “alleges
that he has been taking gabapentin for approximately a
decade.” Id. at 1316. Despite the similarity of the two
cases, the Ledford court did not sua sponte raise the
issue the majority opinion raises and says is “squarely
present[ed]” here. Maj. Op. at 12. Of course the Ledford
panel could have, based on the same statement in Hill
that was later restated in the now-touted Bucklew
parenthetical. But it did not, again because no precedent
requires or even directs us to hold that method of
execution claims are cognizable in habeas. We should
not deviate from the line of demarcation Ledford—and
many other courts—have essentially taken for granted,
and apply the Supreme Court’s procedural directive to
Mr. Nance’s case as well.
The majority opinion itself recognizes that the facts
of Mr. Nance’s case are similar to those in Ledford. See
Maj. Op. at 13–14. But it avoids explaining the different
procedural approach it takes for Mr. Nance’s case by
turning to the Ledford panel’s substantive analysis of
the
Eighth
Amendment’s
alternative-method
requirement. See id. at 14–15. But this collapses the
very distinction between the “substantive right under
the Eighth Amendment” and the procedural vehicle of

38a
§ 1983 the majority says it is making. See id. at 14; see
also id. at 12 (citing Bucklew, 139 S. Ct. at 1128). Thus
it would seem that the majority cannot disagree with my
point that no precedent supports the majority’s new rule
that Mr. Nance must bring his method-of-execution
claim in a habeas petition.
It is true that the Ledford panel, as the majority says,
did not decide what is the proper vehicle for bringing a
method-of-execution claim.2 See Maj. Op. at 15. It had
no reason to. The proper vehicle for bringing these
claims is well-established and Bucklew’s clarification of
the substantive requirements does not change the
procedural ones. This reflects a missing link in the
majority’s logic. See id. at 14–15 (describing Ledford as
an erroneous Eighth Amendment ruling “[b]ased on our
misunderstanding
of
the
alternative-method
requirement under Baze and Glossip”). And the
majority cannot properly ignore precedent by merely
explaining that the judges who decided Ledford
misunderstood the alternative-method requirement
under the Baze-Glossip test. See Maj. Op. at 15.3

2

The majority also distinguishes Ledford by saying it did not
expressly address any jurisdictional defect. See Maj. Op. at 14.
Perhaps that is because, like here, there was no jurisdictional defect
to be found. Neither is Mr. Nance’s a case that finally brings any
purported jurisdictional issue before us. It resembles Ledford in all
key respects but for one: the majority’s sua sponte invitation to
counsel to address the existence of this court-created jurisdictional
issue in Mr. Nance’s case.
3

Taken to its logical end, the majority’s holding would also bless a
State’s efforts to legislate away available alternatives that a litigant
could point to in order to satisfy his burden under Baze-Glossip in a

39a
But for the majority’s strained effort to justify a new
category of method-of-execution claims based on an
obscure parenthetical in the Supreme Court’s opinion in
Bucklew, Mr. Nance would win this appeal.
II.
At last, I will address the merits of the appeal Mr.
Nance actually filed. The parties argue about whether
Mr. Nance’s method of execution claim is timely and
whether he stated a claim for relief. Assuming that at
least Mr. Nance’s compromised vein claim is timely,4 we
§ 1983 action. By limiting the ways an execution can be carried out
under statute, any state can foreclose claims under § 1983 that this
Court and the Supreme Court have historically and repeatedly
treated as cognizable under § 1983.
Today the Georgia statute says only that execution must be
effected by “lethal injection”; tomorrow it could mandate lethal
injection by a specified three-drug cocktail, or require a particular
procedure to gain intravenous access. But of course, people
sentenced to death have repeatedly brought challenges under
§ 1983 alleging that certain portions of a lethal injection protocol or
cutdown procedure violates their Eighth Amendment rights. See,
e.g., Glossip, 576 U.S. at 867, 135 S. Ct. at 2731 (addressing challenge
to Oklahoma’s switch from pentobarbital to midazolam under
§ 1983); Nelson, 541 U.S. at 645–46, 124 S. Ct. at 2123–24 (holding
that the challenge to the cut-down procedure to enable the lethal
injection was properly brought under § 1983). The logical
implication of the majority’s ruling is that now a legislature’s
selection of procedures, no matter how narrow or specific, would not
only deserve “deference,” Maj. Op. at 20 (quotation marks omitted),
but also work to prevent a challenge under § 1983.
4

The parties agree that, for as-applied challenges, “the statute of
limitations does not begin to run until the facts which would support
the cause of action are apparent or should be apparent to a person
with a reasonably prudent regard for his rights.” See McNair v.

40a
must determine whether Nance’s complaint includes
“enough facts to state a claim to relief that is plausible
on its face.” Bell Atl. Co. v. Twombly, 550 U.S. 544, 570,
127 S. Ct. 1955, 1974 (2007).
Under the Baze-Glossip test, a prisoner challenging
the method of his execution must show two things: “(1)

Allen, 515 F.3d 1168, 1173 (11th Cir. 2008). Mr. Nance says his veins
are severely compromised, and that “medical technicians have
difficulty locating a suitable vein” when they seek to draw his blood.
He also alleged that in May 2019, a medical technician told him that
the GDOC execution team would have to use an alternative
procedure to gain intravenous access, because they “would not
otherwise be able to obtain sustained intravenous access.” Then, in
October 2019, after a physical examination, Mr. Nance learned there
are no discernible veins in his upper or lower extremities.
From the face of Mr. Nance’s complaint, he affirmatively
alleged that he learned about the condition of his veins—and the
impact they would have on his execution—in May 2019 at the
earliest. See Siebert v. Allen, 506 F.3d 1047, 1048–49 (11th Cir. 2007)
(recognizing that knowledge of underlying medical conditions, and
thus “factual predicate” for claim, was “in place” upon diagnosis).
Defendants acknowledge that Mr. Nance did plead he became
aware of his “severely compromised and tortured veins in May
2019,” but urge us to read Mr. Nance’s complaint as “conveniently
silent” about the cause of his compromised veins or any change in
his veins. However, a statute of limitations bar is an affirmative
defense, and a plaintiff is not required to negate an affirmative
defense in his complaint. La Grasta v. First Union Sec., Inc., 358
F.3d 840, 845 (11th Cir. 2004); see also Boyd, 856 F.3d at 872 (noting
that dismissal of a § 1983 method-of-execution claim is appropriate
“only if it is apparent from the face of the complaint that the claim
is time-barred”). Mr. Nance alleged sufficient facts to survive
Defendants’ timeliness challenge. See La Grasta, 358 F.3d at 848
(“[D]epending on what discovery reveals, the result at the summary
judgment stage may or may not be the same.”).

41a
the lethal injection protocol in question creates a
substantial risk of serious harm, and (2) there are known
and available alternatives that are feasible, readily
implemented, and that will in fact significantly reduce
the substantial risk of severe pain.” Ledford, 856 F.3d at
1316 (quotation marks omitted) (alteration adopted); see
also Bucklew, 139 S. Ct. at 1125 (citing Glossip, 576 U.S.
at 868–78, 135 S. Ct. at 2732–38; Baze, 553 U.S. at 52, 128
S. Ct. at 1532). This legal framework applies to both
facial and as-applied challenges to a State’s method of
execution.
See Bucklew, 139 S. Ct. at 1128–29
(“(re)confirm[ing] that anyone bringing a method of
execution claim . . . must meet the Baze-Glossip test”).
With these principles in mind, I turn to the elements of
Mr. Nance’s claim.
A. THE DISTRICT COURT ERRED BY MAKING
FACTUAL FINDINGS ABOUT MR. NANCE’S
ALLEGATIONS BASED ON HIS PLEADINGS
ALONE.
The District Court made findings of fact and weighed
Mr. Nance’s claims when it ruled on the Defendants’
motion to dismiss under Rule 12(b)(6). Here are a few
examples.


“In response to Plaintiff’s claim that, because the
IV Team is not in the execution chamber it is
‘very unlikely that they could recognize [an]
extravasation and take timely, appropriate
action,’ this Court finds that the claim is false.”
See R. Doc. 26 at 15–16 (emphasis added) (relying
on protocol language that “clearly refutes
Plaintiff’s claim”).

42a


“While it is possible that Plaintiff may experience
pain if the IV Team unsuccessfully attempts to
establish intravenous access, such pain would be
de minimis as it would be no worse than that
encountered when visiting a physician or
donating blood.” Id. at 14 (emphasis added).



“[T]his court first notes that Plaintiff’s claim [that
if cannulation is not successful the physician will
resort to a cutdown procedure] is entirely
speculative because it is based on Plaintiff’s
‘information and belief.’ In fact, it is not at all
clear that Georgia would use a cut-down
procedure” based on the GDOC’s Protocol. Id. at
16–17 (citation omitted).



“As far as this Court can determine, utilization of
a cut-down procedure in an execution is quite
rare. This Court is aware of only one, or possibly
two, cut-down procedures during an execution in
the United States.” Id. at 17 & n.7 (citing
Bucklew, 139 S. Ct. at 1131, and Nooner v. Norris,
594 F.3d 592, 604 (8th Cir. 2010)).



“[T]his Court must further presume that,”—
contrary to Mr. Nance’s allegations—“to the
degree that a physician must resort to a cutdown
procedure, he will do so in a humane manner[.]”
Id. at 18 (emphasis added).

It is black letter law that “[a] motion to dismiss does
not test the merits of a case.” See Young Apartments,
Inc. v. Town of Jupiter, 529 F.3d 1027, 1037 (11th Cir.
2008). In deciding a motion to dismiss, courts must
accept the allegations in the complaint as true and

43a
construe them in the light most favorable to the plaintiff.
Hunt v. Aimco Props., L.P., 814 F.3d 1213, 1221 (11th
Cir. 2016). This rule does not permit evaluating facts or
taking judicial notice of findings of fact in other cases.
Cf. Grayson v. Warden, Comm’r, Ala. Dep’t of Corr., 869
F.3d 1204, 1225–26 (11th Cir. 2017) (holding the issue of
“[w]hether compounded pentobarbital was feasible and
‘readily available’ . . . was a factual issue” specific to this
plaintiff’s case). The District Court violated these wellestablished principles here, so it clearly erred in
reaching its holding that Mr. Nance failed to state a
claim.
An evaluation of Mr. Nance’s complaint reveals that
he has properly alleged the first element of a method of
execution claim based on his compromised veins. To
show that Georgia’s lethal injection protocol “creates ‘a
substantial risk of serious harm,’” Ledford, 856 F.3d at
1316, Mr. Nance alleges, among other things, that (1)
inserting an intravenous catheter into his veins will be
“extremely difficult and presents a substantial risk that
the vein will ‘blow’ and lose its structural integrity,
causing the injected pentobarbital to leak into the
surrounding tissue”; and (2) the likely alternative to
intravenous access is a “cutdown procedure.” These
allegations track the allegations of other plaintiffs who
have survived a motion to dismiss.5 Mr. Nance has
5

For example, in Bucklew, the Supreme Court noted that the
plaintiff asserted, among other things, that the state’s injection
protocol “could cause the vein to rupture” and the IV Team might
use a painful cut-down procedure. 139 S. Ct. at 1130. The Supreme
Court did not say these risks could not qualify as substantial risk of
severe pain as a matter of law; rather, the Court rejected these

44a
therefore alleged sufficient facts to show a substantial
risk of harm based on his compromised veins.
B. MR. NANCE PROPERLY ALLEGED THAT A
FIRING SQUAD IS A FEASIBLE AND
READILY IMPLEMENTED ALTERNATIVE.
Mr. Nance’s allegations also support the second
element of the Baze-Glossip test: that “there are known
and available alternatives that are feasible, readily
implemented, and that will in fact significantly reduce
the substantial risk of severe pain.” Ledford, 856 F.3d at
1316 (quotation marks omitted). He alleges that the
State of Utah has carried out three executions by firing
squad since 1976, most recently in 2010, and Utah’s
procedures for doing so are publicly accessible. He
alleges execution by firing squad is “a known and
available alternative method” recognized as permissible
by the Supreme Court. Mr. Nance says Georgia has a
“sufficient stockpile or can readily obtain both the
weapons and ammunition necessary” to carry out such
an execution. And he alleges a firing squad will result in
a “swift and virtually painless” execution. These
allegations are sufficient to allege that Georgia is “able
asserted risks because they “rest[ed] on speculation unsupported”
at the summary judgment stage. Id. The Supreme Court made a
similar determination in Baze. The Baze plaintiffs claimed that “it
is possible that the IV catheters will infiltrate into surrounding
tissue, causing an inadequate dose to be delivered to the vein.” 553
U.S. at 54, 128 S. Ct. at 1533. The Supreme Court rejected that risk
because the evidence—following “extensive hearings and . . .
detailed findings of fact” by the trial court—showed that Kentucky
trained its personnel to calculate and mix an adequate dose. Id. at
41, 128 S. Ct. at 1526.

45a
to implement and carry out” execution by firing squad
“relatively easily and reasonably quickly.” See Boyd,
856 F.3d at 868. Defendants argue Mr. Nance has done
nothing more than “recite[] the formulaic elements” of
this prong, but they place too heavy a burden on Nance
at the pleadings stage. See Bucklew, 139 S. Ct. at 1128–
29 (recognizing there is “little likelihood that an inmate
facing a serious risk of pain will be unable to identify an
available alternative”). Mr. Nance has indeed pointed to
“well-established protocol in another State” and alleged
that Georgia has the means to carry out this method of
execution. See id. at 1128.
This Court has recognized the viability of execution
by firing squad. See Ledford, 856 F.3d at 1318
(explaining that the firing squad method has “given way
to more humane methods of execution” (quotation marks
omitted and alteration adopted)); Boyd, 856 F.3d at 881
(Wilson, J., concurring in judgment) (“[W]e know that
the firing squad is a straightforward, well-known
procedure that has been performed for centuries.”). So
has the Supreme Court. See Bucklew, 139 S. Ct. at 1123
(citing Wilkerson v. Utah, 99 U.S. 130 (1879)). There
appear to be two Supreme Court Justices who have
recognized that a firing squad may be “significantly
more reliable than other methods, including lethal
injection,” and “there is some reason to think that [death
by firing squad] is relatively quick and painless.”
Glossip, 576 U.S. at 976–77, 135 S. Ct. at 2796
(Sotomayor, J., dissenting); see also Arthur v. Dunn, 137
S. Ct. 725, 733–34 (2017) (mem.) (Sotomayor, J.,
dissenting from the denial of certiorari); Bucklew, 139 S.
Ct. at 1136 (Kavanaugh, J., concurring) (citing Justice

46a
Sotomayor’s dissent in Arthur and explaining the State
conceded a firing squad is an available alternative, if
adequately pled).
In sum, Mr. Nance has stated a sufficient claim and
the District Court erred in holding he did not.
***
I can think of no more consequential act of a
government than to take the life of one of its citizens.
Mr. Nance is facing that fate in Georgia. The role of
federal courts in the process of the taking of Mr. Nance’s
life is limited. Our job in Mr. Nance’s case was merely to
apply straightforward and well-established rules to
determine whether, as Mr. Nance claims, the District
Court erred by making findings of fact and weighing
allegations in ruling on the State’s motion to dismiss.
The majority opinion fails to undertake this job. More
worrisome, the majority’s decision to change the rules
governing the procedure by which death row prisoners
must bring a method of execution claim introduces chaos
into this area of the law. People facing their death at the
hands of the State deserve more reliable treatment from
their federal courts. I dissent.

47a
Appendix B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MICHAEL WADE
NANCE,
Plaintiff,

CIVIL ACTION NO.
1:20-cv-0107-JPB

v.
TIMOTHY C. WARD and
BENJAMIN FORD,
Defendants.
ORDER

Before the Court is Defendants’ Motion to Dismiss
the Complaint (“Motion”). ECF No. 19. Having
reviewed and considered Defendants’ arguments, the
Court finds as follows:
I. Background
Plaintiff, a prisoner currently under a sentence of
death by the State of Georgia, filed this action under 42
U.S.C. § 1983 claiming that, because of his unique
medical issues, the State of Georgia’s lethal injection
method of execution will cause him excessive pain in
violation of his Eighth Amendment rights. As a solution,
Plaintiff suggests that the State could avoid the
unreasonable risk of pain by executing him by firing
squad.

48a
In their Motion, Defendants contend that the
complaint should be dismissed because (1) Plaintiff’s
claims are time-barred under the applicable two-year
statute of limitations, (2) Plaintiff’s complaint fails to
state a plausible claim for relief, and (3) Plaintiff has
failed to properly exhaust his administrative remedies
as required by the Prison Litigation Reform Act
(PLRA), 42 U.S.C. § 1997e.
II. Discussion
A. Plaintiff’s Claims
In his complaint, Plaintiff claims that he has been
taking prescription gabapentin since April 2016. ECF
No. 1 at 14. Gabapentin is an anti-epileptic drug, which
is also prescribed for nerve pain. Plaintiff takes it for
back pain.
According to Plaintiff, prolonged gabapentin use
alters a person’s brain chemistry and makes the person’s
brain less responsive, or even unresponsive, to certain
other drugs, including pentobarbital. As a result,
Plaintiff contends that there is a risk that the
pentobarbital that the State intends to use to execute
him will not render him unconscious while at the same
time, the pentobarbital’s effect on his respiratory
system will be undiminished. If that were to happen,
Plaintiff asserts that he would suffer from the painful
effects of respiratory and organ failure while fully
conscious.
Plaintiff also claims that his veins are compromised
and not suitable for intravenous (IV) insertion of
pentobarbital. He contends that finding a suitable vein
“will likely require multiple painful needle insertions and

49a
blind attempts by the IV team.” ECF No. 1 at 11.
Plaintiff further contends that his veins are “heavily
scarred, tortuous, and have thin walls,” id., and if
pentobarbital is injected into one of his veins, there is a
risk that the vein will “blow,” causing pentobarbital to
leak into surrounding tissue, which would result in
burning pain and “incomplete and inconsistent drug
delivery [and] a prolonged and only partially
anesthetized execution.” Id. at 12.
Plaintiff also contends that the Georgia Department
of Corrections’ (GDOC) lethal execution protocol
provides for the alternative of a central venous
cannulation1 if IV access cannot be established, and he
claims that such a procedure would cause him intolerable
pain.
According to Plaintiff, if central venous
cannulation is not viable, “upon information and belief,
the Execution Team will attempt to perform a cutdown
procedure,” whereby an incision is made to find a
suitable vein, which would also be intolerably painful as
well as bloody. Id. at 13.
Plaintiff also raises numerous issues related to the
IV delivery of pentobarbital under Georgia’s execution
protocol. According to Plaintiff, the execution team
1

“Central venous cannulation is a technique for gaining access to
one of the major veins in an individual’s body, such as the jugular or
femoral veins.”
Gissendaner v. Commr., Georgia Dept. of
Corrections, 779 F.3d 1275, 1278 (11th Cir. 2015) (citation omitted).
The procedure entails inserting a catheter into a central vein located
either in the groin or above or below the clavicle. The National
Institutes of Health describes central venous cannulation as “a
commonly performed procedure.” See information available at
www.ncbi.nlm.nih.gov/pmc/articles/PMC3270925/.

50a
administering the pentobarbital into his IV tube will not
be in the same room as Plaintiff, and they thus will be
unaware if complications arise in the application of the
lethal injection drug. Because the IV team is in another
room, the IV tubing for delivery of the pentobarbital is
too long, creating a risk of “incomplete delivery of the
drug” and a “prolonged and/or partially anesthetized
execution.” Id. at 17.
Plaintiff further alleges that the pentobarbital that
the State receives from a compounding pharmacy is poor
in “quality, potency, purity or stability,” id., and that the
“[m]embers of the execution team lack the professional
skills, training, and/or necessary equipment to safely and
humanely perform these procedures” of central venous
cannulation or a cutdown, id. at 17-18. As an alternative,
Plaintiff proposes that he be executed by firing squad,
“which would significantly reduce the substantial risk of
severe pain.” Id. at 20-21.
B. Statute of Limitations
An action brought pursuant to § 1983 is subject to the
statute of limitations governing personal injury actions
in the state where the challenge is brought. Boyd v.
Warden, Holman Corr. Facility, 856 F.3d 853, 872-76
(11th Cir. 2017); Gissendaner v. Ga. Dep’t of Corr., 779
F.3d 1275, 1280 (11th Cir. 2015). In Georgia, the statute
of limitations for personal injury actions is two years.
Gissendaner, 779 F.3d at 1280. Because the statute of
limitations is an affirmative defense, dismissal under
Fed. R. Civ. P. 12(b)(6) on statute of limitations grounds
is appropriate only if it is apparent from the face of the
complaint that the claim is time-barred. Id.

51a
While the limitations period for a § 1983 claim is
governed by the applicable state law, federal law
determines when a claim accrues.
Mullinax v.
McElhenney, 817 F.2d 711, 716 (11th Cir. 1987). Under
federal law, actions brought pursuant to § 1983 accrue
“from the date the facts which would support a cause of
action are apparent or should be apparent to a person
with a reasonably prudent regard for his rights.” Brown
v. Ga. Bd. of Pardons & Paroles, 335 F.3d 1259, 1261
(11th Cir. 2003). The right of action for a method-ofexecution challenge “‘accrues on the later of the date on
which’ direct review is completed by denial of certiorari,
‘or the date on which the capital litigant becomes subject
to a new or substantially changed execution protocol.’”
Gissendaner, 779 F.3d at 1280 (quoting McNair v. Allen,
515 F.3d 1168, 1174 (11th Cir. 2008)).
The United States Supreme Court denied
Petitioner’s petition for certiorari on direct review on
October 2, 2006. Nance v. Georgia, 549 U.S. 868 (2006).
In 2001, Georgia adopted lethal injection as its method
of execution. O.C.G.A. § 17-10-38(a) (stating “[a]ll
persons who have been convicted of a capital offense and
have had imposed upon them a sentence of death shall
suffer such punishment by lethal injection”);
Gissendaner, 779 F.3d at 1281. In March 2013, Georgia
changed from using a single dose of FDA-approved
pentobarbital to using a single dose of compounded
pentobarbital. Gissendaner, 779 F.3d at 1281.2 The
2

This Court notes that the GDOC’s current Lethal Injection
Procedures, attached as Exhibit A to Plaintiff’s complaint, ECF No.
1-1, which was adopted on July 17, 2012, states that condemned
prisoners will be executed with a five-gram does of pentobarbital.

52a
Eleventh Circuit has held that the State’s change to the
use of compounded pentobarbital is not a substantial
change to Georgia’s execution protocol. Id. at 1281-82.
Thus, as a general matter, Petitioner’s method-ofexecution claim accrued in October 2006 and must have
been filed by October 2008 to be timely.
See
Gissendaner, 779 F.3d at 1280; Ledford v. Commr.,
Georgia Dept. of Corrections, 856 F.3d 1327, 1330 (11th
Cir. 2017). The absolute latest that his claims would
have accrued is 2012 or 2013 when the state switched to
pentobarbital and adopted its current protocol.
Plaintiff concedes that any facial challenge that he
makes to Georgia’s execution protocol is untimely,3 but
he argues that his “as-applied” claims—specifically his
claims that his long-term use of gabapentin and his
compromised veins render it more likely that he will
suffer constitutionally intolerable pain or discomfort
during his execution—did not accrue until the time that
a reasonable layperson would understand that he faced
risks during his execution due to his medical history.
According to Plaintiff, the limitations period did not
begin to run with respect to his compromised-vein claim
until May 2019, when a medical technician at the prison
Accordingly, it appears that the State adopted the single dose of
pentobarbital before 2013.
3

Indeed, despite appearances otherwise, Plaintiff states that he
raises only as-applied challenges to Georgia’s lethal injection
protocol based on his compromised veins and his prolonged use of
gabapentin. [Doc. 22 at 2]. His assertions regarding the other
aspects of the State’s execution protocol are merely offered in
support of those as-applied challenges. As a result, this Court’s
discussion is limited to his as-applied claims.

53a
informed Plaintiff that, because of his veins, the
execution team would have to cut his neck to carry out
the execution.
Plaintiff further claims that the
limitations period did not run on his gabapentin claim
until he “became aware, or should have become aware,
that his prolonged use and increasing dosages, would
affect the efficacy of pentobarbital and impact his
execution.” ECF No. 22 at 5. He does not, however,
specify when that was.
As Defendants point out, Plaintiff does not cite to any
case law in support of his argument that a layperson’s
lack of technical knowledge or technical expertise might
delay the accrual of a cause of action under § 1983. In
Ledford, cited above, J.W. Ledford claimed that his
prolonged use of the drug gabapentin left him
susceptible to a painful execution by pentobarbital. The
Eleventh Circuit determined that Ledford’s claim was
time-barred after noting that “Ledford also alleges that
he has been taking gabapentin for approximately a
decade,” and his claims “about the interaction of those
two
drugs—compounded
pentobarbital
and
gabapentin—are filed too late.” Ledford, 856 F.3d at
1330. As is noted above, according to the complaint,
Plaintiff has been taking prescription gabapentin since
April, 2016, over three years before he filed his
complaint. Because Plaintiff knew that he was taking
gabapentin and knew that the State planned to execute
him using pentobarbital, and because Plaintiff makes no
claim about when he learned of the potential adverse
interaction between the two drugs, Plaintiff’s
gabapentin claim is clearly time-barred. Moreover, in
response to Plaintiff’s implied claim that he learned of

54a
the potential problems resulting from his gabapentin use
recently, this Court concludes that his knowledge that
he took gabapentin and would be executed with
pentobarbital was sufficient to put him on notice that he
should inquire whether there might be some adverse
interaction between the two drugs.
As to his claim regarding his compromised veins, in
Gissendaner, also cited above, Gissendaner raised a
method-of-execution challenge, claiming that her
obesity and possible sleep apnea left her susceptible to
an increased risk of pain during her execution by lethal
injection.
The Eleventh Circuit concluded that
Gissendaner’s claims were time-barred after noting that
her “complaint contains no factual allegations
suggesting that her obesity or her potential sleep apnea
(the chance of which is increased by her obesity) are
recent developments.” Gissendaner, 779 F.3d at 1281.
Likewise, Plaintiff has made no claim that his veins
became compromised within the past two years.
Neither Ledford nor Gissendaner addressed
arguments like Plaintiff’s that his claim did not accrue
until he learned of the potential for his medical
conditions to cause problems if pentobarbital is
administered during his execution. But the limited
analogous, persuasive case law determining when claims
accrue in § 1983 actions indicate that Plaintiff’s
argument is unavailing. For example, in Hawkins v.
Spitters, 79 Fed. Appx. 168 (6th Cir. 2003), Stacy
Hawkins, a prisoner, raised a deliberate indifference to
serious medical needs claims under § 1983 against a
physician who had repeatedly refused to refer him for
testing to determine whether he suffered from sleep

55a
apnea. The Sixth Circuit determined that the claim was
time-barred because Hawkins failed to raise the claim
within the applicable three-year statute of limitations.
Hawkins argued that his claim did not accrue until he
was actually diagnosed with sleep apnea, “otherwise his
claim would be mere speculation about his condition,”
but the court rejected that argument, holding that the
claim accrued when the physician rejected his request.
Id. at 169.
Some case law, however, indicates that a claim will
not accrue until certain knowledge is gained by the
plaintiff. For example, in Diaz v. United States, 165 F.3d
1337, 1338 (11th Cir. 1999), Alejandro Diaz committed
suicide while in prison. Prison officials informed Diaz’s
wife that they had no indication or warning that he might
kill himself. Only later did the wife learn that Diaz had
been treated by psychologists and had reported “a fifty
pound weight loss during the preceding weeks,
recurring depression, anxiety, headaches, insomnia,
racing thoughts and other symptoms” as well as suicidal
thoughts. Id. The Eleventh Circuit concluded that the
wife’s medical malpractice, wrongful death, and
negligence claims under the Federal Tort Claims Act
(FTCA) accrued when the wife learned that Diaz had
received psychological treatment rather than at the time
of Diaz’s death. Id. at 1341. Central to the Eleventh
Circuit’s holding, however, was that the facts indicating
a causal link between Diaz’s death and the actions of
prison officials were in the control of those prison
officials. Id. at 1339. In this case, there is no indication
that state officials had superior knowledge of the status
of Plaintiff’s veins.

56a
This Court also credits Defendants’ argument that
under Plaintiff’s theory, “he could simply sit back and
wait, ostensibly for as long as he wanted, to ascertain the
alleged impact of a perceived injury under § 1983,” ECF
No. 25 at 5, which would defeat the purpose of the
statute of limitations. In United States v. Kubrick, 444
U.S. 111 (1979), the plaintiff sued a Veterans Affairs
physician under the FTCA alleging negligence/medical
malpractice for causing a hearing loss by improperly
prescribing a neomycin treatment. In reversing the
court of appeals and holding that the claim accrued when
the neomycin treatment occurred rather than when
another physician informed him that the neomycin
treatment had been improper, the Supreme Court noted,
it is apparent, particularly in light of the facts in
this record, that the Court of Appeals’ rule would
reach any case where an untutored plaintiff,
without benefit of medical or legal advice and
because of the “technical complexity” of the case,
would not himself suspect that his doctors had
negligently treated him. As we understand the
Court of Appeals, the plaintiff in such cases need
not initiate a prompt inquiry and would be free to
sue at any time within two years from the time he
receives or perhaps forms for himself a
reasonable opinion that he has been wronged. In
this case, for example, Kubrick would have been
free to sue if Dr. Soma had not told him until 1975,
or even 1980, instead of 1971, that the neomycin
treatment had been a negligent act.
Id. at 118 (citation to the record omitted). This Court
similarly rejects Plaintiff’s argument for an open ended

57a
date for the accrual of his claim that is based on when he
happens to discover information purportedly sufficient
to inform him that he has a viable claim.
This Court also points out that central venous
cannulation and the cut-down procedure4 have been a
part of Georgia’s execution protocol at least since 2012,
and, to the degree that he now claims that those
procedures would cause intolerable pain, Plaintiff has
been on notice that he might be subject to them for
several years.
Having reviewed the record, this Court concludes
that Plaintiff’s as-applied claims are barred by the
statute of limitations.
C. Failure to State a Claim
Even if Plaintiff is correct that his compromised-vein
claims did not accrue until the prison medical technician
put him on notice of the potential problem, this Court
agrees with Defendants that the claim should be
dismissed pursuant to Fed. R. Civ. P. 12(b)(6) because
Plaintiff has failed to state a viable claim for relief.
Pursuant to Fed. R. Civ. P. 8(a)(2), a complaint must
contain “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Although
detailed factual allegations are not necessarily required,
the pleading must contain more than “labels and
conclusions” or a “formulaic recitation of the elements of
a cause of action.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). “[A] complaint must contain sufficient factual
4

As discussed below, it is not clear that a cut-down procedure is a
part of the GDOC’s lethal injection protocol.

58a
matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Id. A “claim has facial plausibility
when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. In
order to state a claim of an Eighth Amendment risk of
future harm, the alleged “conditions presenting the risk
must be sure or very likely to cause serious illness and
needless suffering, and give rise to sufficiently imminent
dangers.” Gissendaner, 779 F.3d at 1283.
Defendants first argue that Plaintiff’s claim
regarding his compromised veins fails because
“Georgia’s lethal injection protocol accounts for the
possibility of an inmate’s veins being compromised.”
ECF No. 19 at 17. As noted above, see supra n.2,
Plaintiff has attached the Georgia lethal injection
protocol to his complaint. In that protocol, it states:
The IV Team will provide two (2) intravenous
accesses into the condemned. If the veins are
such that intravenous access cannot be provided,
a Physician will provide access by central venous
cannulation or other medically approved
alternative.
ECF No. 1-1 at 7; see Hoefling v. City of Miami, 811 F.3d
1271, 1277 (11th Cir. 2016) (“A district court can
generally consider exhibits attached to a complaint in
ruling on a motion to dismiss, and if the allegations of the
complaint about a particular exhibit conflict with the
contents of the exhibit itself, the exhibit controls.”).
Accordingly, this Court agrees with Defendants that, to
the degree that Plaintiff contends that his veins might
“blow” when injected with pentobarbital, Plaintiff fails

59a
to state a viable claim because Georgia’s protocol
mandates that a physician perform a medicallyapproved alternative method if the condemned prisoner
has veins that are not amenable to establishing an
intravenous line.
While it is possible that Plaintiff may experience pain
if the IV Team unsuccessfully attempts to establish
intravenous access, such pain would be de minimis as it
would be no worse than that encountered when visiting
a physician or donating blood. See Bucklew v. Precythe,
139 S. Ct. 1112, 1124 (2019) (“[T]he Eighth Amendment
does not guarantee a prisoner a painless death.”).
Further, this Court must presume that “state
officials carr[y] out their duties under the death warrant
in a careful and humane manner.” State of La. ex rel.
Francis v. Resweber, 329 U.S. 459, 462 (1947).5 Plaintiff
has made no allegation that would serve to overcome the
presumption.6 In contrast, GDOC officials certainly
5

In addition to Resweber, the Supreme Court has more recently
held that state government officials are presumed to carry out their
duties in a good-faith manner and in compliance with the federal
laws. Alaska Dep’t of Envtl. Conservation v. E.P.A., 540 U.S. 461,
507, (2004); National Archives and Records Admin. v. Favish, 541
U.S. 157, 174 (2004) (discussing the presumption of regularity under
which courts can presume that government officials have faithfully
carried out their duties); Alden v. Maine, 527 U.S. 706, 755 (1999)
(“We are unwilling to assume the States will refuse to honor . . . or
obey the binding laws of the United States.”).
6

In his complaint, Plaintiff does claim that “[m]embers of the
execution team lack the professional skills, training, and/or
necessary equipment to safely and humanely perform” a central
venous cannulation or a cutdown procedure. ECF No. 1 at 17.
However, this claim is clearly refuted by the GDOC lethal injection

60a
have a strong interest in executing its condemned
prisoners in a manner that does not violate their rights.
Botched
executions
lead
to
embarrassment,
investigations, bad press and, for those involved, the
knowledge that they caused an individual needless pain
and suffering.
As Plaintiff has failed to rebut the presumption, this
Court must apply it. Given that presumption, Plaintiff
has no basis to allege that state officials will, effectively,
torture him by repeatedly sticking him with a needle in
a fruitless effort to locate a suitable vein.
In response to Plaintiff’s claim that, because the IV
Team is not in the execution chamber it is “very unlikely
that they could recognize [an] extravasation and take
timely, appropriate action,” this Court finds that the
claim is false. As the state’s protocol makes clear:
Throughout the lethal injection process, an IV
Nurse will monitor the progress of the injection
in the Execution Chamber to ensure proper
delivery of chemicals and to monitor for any signs
of consciousness. If the IV Nurse in the execution
chamber observes a problem with intravenous
flow, the Nurse will inform the attending
Physician, who will inform the Warden as to
whether or not using an alternative intravenous
access is appropriate. The Warden will give the
appropriate instructions to the Injection Team.

protocol, attached to the complaint, which states that a physician
will perform those procedures. ECF No. 1-1 at 4; see Hoefling,
supra.

61a
ECF No. 1-1 at 5 (emphasis supplied). As this passage
from the State’s protocol clearly refutes Plaintiff’s claim,
see Hoefling, supra, this Court concludes that the claim
is unavailing.
As to Plaintiff’s claim that officials may have to
resort to central venous cannulation, which would cause
him pain, this Court again refers to the presumption that
state officials will carry out their duties humanely and
carefully, Resweber, 329 U.S. at 462, and repeats that
central venous cannulation is a routine procedure, see
supra n.1. As such, this Court must presume that, to the
degree that cannulation would cause constitutionally
intolerable pain, the physician performing the procedure
would provide the appropriate anesthetic.
Finally, regarding Plaintiff’s claim that, if
cannulation is not successful the physician will resort to
a cut-down procedure—where a physician would cut an
incision into Plaintiff’s arm or leg in order to locate a
suitable vein—this Court first notes that Plaintiff’s claim
is entirely speculative because it is based on Plaintiff’s
“information and belief.” ECF No. 1 at 13. In fact, it is
not at all clear that Georgia would use a cut-down
procedure. The GDOC’s protocol states that “[i]f the
veins are such that intravenous access cannot be
provided, a Physician will provide access by central
venous cannulation or other medically approved
alternative.” ECF No. 1-1 at 4 (emphasis supplied).
Plaintiff contends that the other alternative would be a
cut-down procedure, but has not expanded on the basis
of that belief. According to the Supreme Court, this
Court “can and should . . . invok[e its] equitable powers
to dismiss or curtail [method of execution challenges]

62a
that are . . . based on speculative theories.” Bucklew, 139
S. Ct. at 1134 (quotations and citations omitted).
As far as this Court can determine, utilization of a
cut-down procedure in an execution is quite rare. This
Court is aware of only one, or possibly two,7 cut-down
procedures during an execution in the United States.
The one well-known instance was the 1992 execution of
Rickey Ray Rector by Arkansas. See Nooner v. Norris,
594 F.3d 592, 604 (8th Cir. 2010). In Nooner, the Eighth
Circuit discussed the Rector execution and concluded
that the plaintiffs raising a claim that Arkansas’ protocol
permitted the use of a cut-down procedure had failed to
establish an Eighth Amendment violation because (1)
the procedure would be performed by “a licensed
physician who is properly qualified to carry out the
procedure,” and (2) the physician would use local
anesthetic as necessary to avoid pain. Id. In other cases
where a cut-down procedure has been challenged by
condemned prisoners, the claims were generally denied
as moot when state officials stated that they would not
use a cut-down procedure. E.g., Cooey v. Strickland, 589
F.3d 210, 228 (6th Cir. 2009); Boyd v. Beck, 404 F. Supp.
2d 879, 885 (E.D.N.C. 2005).
Again this Court must apply the unrebutted
presumption that state officials will act carefully and
humanely in carrying out a death warrant. Resweber,
329 U.S. at 462. As such, this Court must further
presume that, to the degree that a physician must resort
7

In Bucklew, 139 S. Ct. at 1131, the Supreme Court noted that the
warden of a Missouri prison testified that he “once saw medical staff
perform a cut-down as part of an execution.”

63a
to a cutdown procedure, he will do so in a humane
manner as accepted by the Eighth Circuit in Nooner.
Because Plaintiff’s allegation that his veins are
compromised fails to allege a condition that will very
likely cause “serious illness and needless suffering and
give rise to sufficiently imminent danger,” Gissendaner,
779 F.3d at 1283, this Court concludes that Plaintiff has
failed to state a viable Eighth Amendment claim, and his
compromised-vein claim is thus dismissed pursuant to
Fed. R. Civ. P. 12(b)(6).
D. Exhaustion of Remedies
Defendants also contend that Plaintiff has failed to
properly exhaust his administrative remedies. Plaintiff
did file a prison grievance, but it is undisputed that
Plaintiff did not complete the administrative remedy
process available to him.
Under the Prison Litigation Reform Act, a prisoner
may not file a § 1983 action “until such administrative
remedies as are available are exhausted.” 42 U.S.C.
§ 1997e(a). The Eleventh Circuit has interpreted this
requirement to mean that prisoners “‘must file a
grievance and exhaust the remedies available under that
procedure before pursuing a § 1983 lawsuit.’” Bryant v.
Rich, 530 F.3d 1368, 1372–73 (11th Cir. 2008) (quoting
Johnson v. Meadows, 418 F.3d 1152, 1156 (11th Cir.
2005)). However, “[a] remedy has to be available before
it must be exhausted, and to be ‘available’ a remedy must
be ‘capable of use for the accomplishment of [its]
purpose.’” Turner v. Burnside, 541 F.3d 1077, 1084 (11th
Cir. 2008) (quoting Goebert v. Lee County, 510 F.3d 1312,
1322–23 (11th Cir. 2007)). “Remedies that rational
inmates cannot be expected to use are not capable of

64a
accomplishing their purposes and so are not available.”
Id.
In a recent order entered in Martin v. Ward, No.
1:18-cv-4617 (N.D. Ga. Nov. 21, 2019) (hereinafter
Martin Order) (ECF No. 21), a § 1983 method-ofexecution action, Judge Brown noted that in Ross v.
Blake, 136 S. Ct. 1850, 1859 (2016), the Supreme Court
expanded the concept of what it means when a remedy
is not available under § 1997e(a).
[A]s Booth8 made clear, an administrative
procedure is unavailable when (despite what
regulations or guidance materials may promise) it
operates as a simple dead end—with officers
unable or consistently unwilling to provide any
relief to aggrieved inmates. See 532 U.S. at 736,
738.
Suppose, for example, that a prison
handbook directs inmates to submit their
grievances to a particular administrative office—
but in practice that office disclaims the capacity
to consider those petitions. The procedure is not
then “capable of use” for the pertinent purpose.
In Booth’s words: “[S]ome redress for a wrong is
presupposed by the statute’s requirement” of an
“available” remedy; “where the relevant
administrative procedure lacks authority to
provide any relief,” the inmate has “nothing to
exhaust.”
Id. at 736 and n.4.
So too if
administrative officials have apparent authority,
but decline ever to exercise it. Once again: “[T]he
modifier ‘available’ requires the possibility of
8

Booth v. Churner, 532 U.S. 731 (2001).

65a
some relief.” Id. at 738. When the facts on the
ground demonstrate that no such potential exists,
the inmate has no obligation to exhaust the
remedy.
Ross v. Blake, 136 S. Ct. 1850, 1859 (2016).
Judge Brown further noted that under the GDOC’s
“published grievance policy, ‘[m]atters over which the
Department has no control, including parole decisions,
sentences, probation revocations, court decisions, and
any matters established by the laws of the state’ are
‘non-grievable issues.’” Martin Order at 8 (citing the
state grievance policy). Judge Brown also noted that
GDOC officials routinely disclaim the authority to
consider grievances that raise method-of-execution
claims. Id. Accordingly, Judge Brown concluded that
[i]f, in response to every single grievance raising
a method-of-execution challenge, [GDOC]
officials have always responded that they lack
authority to grant relief, the Court finds that this
grievance procedure is the “simple dead end”
discussed in Ross where officials “disclaim[] the
capacity to consider those petitions.” 136 S. Ct. at
1859. The Court thus agrees with Plaintiff that
relief is unavailable under [GDOC]’s grievance
procedure and that lack of exhaustion must be
excused.
Id. at 9.
Relying on Judge Brown’s analysis, this Court
concludes that exhaustion must likewise be excused in
this case.

66a
III. Defendant’s Motion to Exceed Page Limits
Pursuant to Local Rule 7.1(D) (N.D. Ga.), motions
filed in this Court are limited to twenty-five pages.
Along with their motion to dismiss, Defendants filed a
motion to exceed that limit by seven pages. ECF No. 17.
In opposing the motion, ECF No. 21, Plaintiff points out
that under the undersigned’s Standing Order Regarding
Civil Litigation, ECF No. 4,
Parties seeking an extension of the page limit
must do so at least five days in advance of their
filing deadline and should explain with specificity
the reasons necessitating the extension. If a
party files a motion to extend the page limit at the
same time his or her brief is due, the extension
request will be denied absent a compelling and
unanticipated reason for violating the rule. The
Court will also not consider any arguments made
in pages which exceed the Local Rules’
requirements.
Id. at 12.
Under Local Rule 7.1(F), this Court has the
discretion to waive application of the page limit, and the
undersigned has the authority to waive the
requirements of the standing order. While Plaintiff’s
arguments are well-taken, and counsel for Defendants
should not have ignored the standing order, in the
interests of justice and efficiency, this Court will
exercise its discretion and waive the page limits in the
Local Rules and the requirements of the standing order.

67a
IV. Conclusion
For the foregoing reasons, IT IS ORDERED that
Defendants’ motion to dismiss, ECF No. 19, is
GRANTED and the instant action is hereby
DISMISSED as untimely under the applicable statute
of limitations and for failure to state a claim under Fed.
R. Civ. P. 12(b)(6) as discussed above. Defendants’
motion to exceed the page limit, ECF No. 17, is, for good
cause shown, GRANTED nunc pro tunc. Defendants’
motion to stay discovery, ECF No. 20, is DENIED as
moot.
The Clerk is DIRECTED to CLOSE this action.
SO ORDERED, this 13th day of March, 2020.
/s/
J. P. BOULEE
United States District Judge

68a
Appendix C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MICHAEL WADE
NANCE,
Plaintiff,

CIVIL ACTION FILE
NO. 1:20-CV-107-JPB

v.
TIMOTHY C. WARD and
BENJAMIN FORD,
Defendants.

JUDGMENT
This action having come before the Court, Honorable
J. P. Boulee, United States District Judge, for
consideration of Defendants’ Motion to Dismiss, and the
Court having granted said Motion, it is
Ordered and Adjudged that this action is
DISMISSED as untimely under the applicable statute
of limitations and for failure to state a claim under Fed.
R. Civ. P. 12(b)(6).
Dated at Atlanta, Georgia, this 13th day of March,
2020.
JAMES N. HATTEN
CLERK OF COURT
By: s/R. Spratt
Deputy Clerk

69a
Prepared, Filed, and Entered
in the Clerk’s Office
March 13, 2020
James N. Hatten
Clerk of Court
By: s/R. Spratt
Deputy Clerk

70a
Appendix D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11393
MICHAEL NANCE,
Plaintiff-Appellant,
versus
COMMISSIONER GEORGIA DEPARTMENT OF
CORRECTIONS, WARDEN, GEORGIA
DIAGNOSTIC AND CLASSIFICATION PRISON,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
Before WILLIAM PRYOR, Chief Judge, WILSON,
MARTIN, JORDAN, NEWSOM, BRANCH, GRANT,
LUCK, LAGOA, and BRASHER, Circuit Judges.*
BY THE COURT:
A petition for rehearing having been filed and a
member of this Court in active service having requested
*

Judges Robin Rosenbaum and Jill Pryor recused themselves and
did not participate in the en banc poll.

71a
a poll on whether this appeal should be reheard by the
Court sitting en banc, and a majority of the judges in
active service on this Court having voted against
granting rehearing en banc, it is ORDERED that this
appeal will not be reheard en banc.

72a
WILLIAM PRYOR, Chief Judge, joined by NEWSOM
and LAGOA, Circuit Judges, statement respecting the
denial of rehearing en banc:
A majority of judges voted not to rehear this appeal
en banc. As author of the panel-majority opinion, I write
to respond to my dissenting colleagues’ arguments that
the panel opinion is irreconcilable with Supreme Court
and circuit precedent and that it leaves some prisoners
without a remedy in federal court. Neither charge is
true.
Before I discuss the dissent’s arguments, I want to
set the record straight on a procedural matter: the
panel’s resolution of this appeal on jurisdictional grounds
was not a surprise to the parties. Two weeks before oral
argument, the panel directed the parties to be prepared
to address our jurisdiction. The panel explained that
“[l]ethal injection is the only method of execution
authorized by Georgia law,” and pointed out that Nance
was “seek[ing] an injunction that would foreclose the
State from implementing his death sentence under its
present law.” Given that premise, the panel asked the
parties whether “[Nance’s] section 1983 claim
amount[ed] to a challenge to the fact of his sentence itself
that must be reconstrued as a habeas petition,” and
whether, “[i]f Nance’s claim [was] a habeas petition, . . .
it [was] second or successive[.]”
In its order to the parties, the panel framed the issue
by quoting passages from Bucklew v. Precythe, 139 S.
Ct. 1112, 1128 (2019) (“An inmate seeking to identify an
alternative method of execution is not limited to
choosing among those presently authorized by a
particular State’s law. . . . [But] existing state law might

73a
be relevant to determining the proper procedural
vehicle for the inmate’s claim.”), Hill v. McDonough, 547
U.S. 573, 582 (2006) (“If the relief sought would foreclose
execution, recharacterizing a complaint as an action for
habeas corpus might be proper.”), and Nelson v.
Campbell, 541 U.S. 637, 644 (2004) (“In a State. . . where
the legislature has established lethal injection as the
preferred method of execution, a constitutional
challenge seeking to permanently enjoin the use of lethal
injection may amount to a challenge to the fact of the
sentence itself.” (citation omitted)). In doing so, the
panel gave Nance and his counsel a preview of what
would eventually become the majority opinion.
Nance’s counsel came to oral argument prepared,
and most of the argument was devoted to the
jurisdictional issue. And Nance provided supplemental
authority on the issue one week after oral argument.
The dissent suggests that that panel did not “giv[e] the
parties an adequate opportunity to prepare to address
the issue,” Dissent at 13, but neither party asked the
panel to submit supplemental briefing. Our obligation to
consider subject-matter jurisdiction sua sponte may
sometimes catch parties by surprise, but it did not in this
appeal.
The dissent’s justifications for rehearing Nance’s
appeal en banc are unpersuasive. The most the
dissenters can say about any direct conflict between the
panel opinion and Supreme Court precedent is that
“[n]one of [the Supreme Court’s] vaguely worded dicta
[relied on by the panel opinion] is irreconcilable” with
the dissent’s preferred resolution of Nance’s appeal. Id.
at 12. But even if some other approach would not have

74a
been “irreconcilable” with the decisions of the Supreme
Court, it does not follow that the panel opinion is itself
inconsistent with Supreme Court precedent.
The dissent also suggests the panel opinion is
somehow inconsistent with what it claims the Supreme
Court did not say in Bucklew. The dissent says it is
“inconceivable” that the Supreme Court would have
“emphasized that a prisoner can point to an alternative
method of execution authorized in another State,” see
Bucklew, 139 S. Ct. at 1128 (“An inmate seeking to
identify an alternative method of execution is not limited
to choosing among those presently authorized by a
particular State’s law.”), without pairing that
substantive holding with a warning that pleading an
unauthorized method might have serious procedural
implications. Dissent at 14–15. The Supreme Court
apparently found that possibility “inconceivable” as well.
Only four sentences after its substantive holding, the
Supreme Court issued the exact warning the dissent
claims it did not:
[E]xisting state law might be relevant to
determining the proper procedural vehicle for the
inmate’s claim. . . . [I]f the relief sought in a
[section] 1983 action would foreclose the State
from implementing the inmate’s sentence under
present law, then recharacterizing a complaint as
an action for habeas corpus might be proper.
Bucklew, 139 S. Ct. at 1128 (alteration adopted) (internal
quotation marks omitted).
The panel opinion is
consistent with Supreme Court precedent.

75a
The panel opinion is also consistent with circuit
precedent. The dissent suggests that it is “wellestablished in our circuit that, not only can a prisoner
plead a method of execution not authorized under state
law, but [section] 1983 is the proper avenue of relief, and,
as a corollary, such claims cannot be brought in habeas.”
Dissent at 13. But the opinions the dissent cites in
support of its claim do not establish any such blanket
rule for method-of-execution challenges. One of the
opinions did not involve a method-of-execution challenge
at all. See Hutcherson v. Riley, 468 F.3d 750, 754 (11th
Cir. 2006) (“On appeal, Hutcherson frames his issue for
review as . . . a denial of [his] rights to counsel as
envisioned in the Sixth Amendment to the United States
Constitution and Due Process of Law as envisioned in
the Fifth and Fourteenth Amendments to the United
States Constitution[.]”).
And the other opinions
involved garden-variety challenges to specific lethalinjection procedures that clearly did not imply the
invalidity of the entire sentence. McNabb v. Comm’r
Ala. Dep’t of Corr., 727 F.3d 1334, 1344 (11th Cir. 2013)
(prisoner’s claim that “an ineffective first drug or
improper administration of a first drug in a three-drug
protocol would violate the [C]onstitution” was
improperly brought in a habeas petition); Tompkins v.
Sec’y, Dep’t of Corr., 557 F.3d 1257, 1259, 1261 (11th Cir.
2009) (prisoner’s claim “involving lethal injection
procedures” was improperly brought in a habeas petition
(emphasis added)). None of the opinions decided the
proper procedural vehicle for the type of method-ofexecution challenge Nance presents, which the Court
previously and incorrectly believed was foreclosed as a
matter of substantive constitutional law. See Arthur v.

76a
Comm’r, Ala. Dep’t of Corr., 840 F.3d 1268, 1317 (11th
Cir. 2016) (“[A] prisoner must identify an alternative
that is ‘known and available’ to the state in question . . . .”
(emphasis added)), abrogated in part by Bucklew, 139 S.
Ct. 1112. Nance’s appeal presented an issue of first
impression, and the panel opinion does not conflict with
any binding precedent.
Finally, the dissent argues that the Court should
have reconsidered Nance’s appeal en banc because the
panel opinion may leave some prisoners without access
to a federal forum in which to litigate their method-ofexecution challenges, which the dissent says renders the
appeal a question of exceptional importance for the full
court. Dissent at 15. But the panel opinion does not close
the federal courts to prisoners. Prisoners may allege in
habeas petitions alternative methods of execution that
are unauthorized by state law. And they may bring
more traditional challenges to an execution protocol
under section 1983. For example, Nance was free to
insist that Georgia modify its venous-access protocol or
choice of injection drug in his complaint under section
1983. All the panel opinion does is recognize that
Congress denies us the power—regardless of whether a
petitioner alleges a violation of his substantive
constitutional rights—to provide a forum or a remedy
for a claim in an unauthorized second or successive
habeas petition. See 28 U.S.C. § 2244(b). Federal courts
do not have jurisdiction to provide the remedy for every
right denied, and not every decision reflecting that fact
is worthy of en banc review.

77a
WILSON, Circuit Judge, joined by MARTIN and
JORDAN, Circuit Judges, dissenting from the denial of
rehearing en banc:
Michael Nance, a Georgia death-row prisoner, sought
an injunction under 42 U.S.C. § 1983 to bar the state
from executing him via lethal injection, and requested an
alternate method of execution: firing squad. Nance
argued that, because of a unique medical condition,
Georgia’s lethal-injection protocol will violate his Eighth
Amendment right to be free from cruel and unusual
punishment. U.S. Const. amend. VIII. Nance’s veins
lack sufficient structural integrity, meaning that medical
technicians often have difficulty locating a vein from
which to draw blood. A prison medical technician told
Nance that the execution team will have to “cut his neck”
to carry out lethal injection because they will not
otherwise be able to obtain sustained intravenous
access. During his execution, Nance will likely endure a
prolonged and painful attempt to gain intravenous
access. Even if the execution team locates a vein,
Nance’s veins will not support an IV and there is
substantial risk that his veins will lose their structural
integrity and “blow,” causing the injected chemical to
leak into the surrounding tissue. This will cause
intensely painful burning and a prolonged execution that
will feel like death by suffocation.
A panel of this court held that because lethal
injection is the only authorized method of execution
under Georgia law, granting Nance relief would
“necessarily imply the invalidity of his death sentence.”
Nance v. Comm’r, Ga. Dep’t of Corr., 981 F.3d 1201, 1203
(11th Cir. 2020). Consequently, the panel concluded that

78a
Nance’s method-of-execution claim had to be brought as
a petition for a writ of habeas corpus under 28 U.S.C.
§ 2254. Next, the panel determined that Nance’s claim
was barred as a second or successive habeas petition. Id.
The resolution of this case turns on whether Nance’s
claim is a method-of-execution claim cognizable under
§ 1983, or whether it is a habeas claim disguised as a
§ 1983 claim to prevent the State from carrying out the
execution at all. A majority of the court concluded that
the panel decision does not merit en banc review. I
disagree. En banc rehearing is appropriate when it is
“necessary to secure or maintain uniformity of the
court’s decisions” or the case “involves a question of
exceptional importance.” Fed. R. App. P. 35(a). This
case meets both criteria. The panel’s decision disrupts
intra-circuit uniformity and is irreconcilable with
Supreme Court precedent. It also leaves prisoners like
Nance who are to be executed cruelly and unusually
without a remedy in federal court.
The Supreme Court held in Nelson v. Campbell that
method-of-execution claims, like this one, are to be
brought under § 1983. 541 U.S. 637 (2004). That case
originated here in the Eleventh Circuit. Nelson v.
Campbell, 347 F.3d 910 (11th Cir. 2003). In Nelson, we
considered whether a prisoner could bring a § 1983 claim
to challenge the method by which the State would
administer his lethal injection. Id. at 912. The majority
held 2-1 that because the claim was really an attempt to
prevent the State from carrying out the execution, it
was cognizable only as a habeas petition. Id. And,
because it would be Nelson’s second or successive
habeas petition, it was barred. Id. But see id. at 913–15

79a
(Wilson, J., dissenting) (explaining “that the outcome of
Nelson’s petition has no effect on either his sentence or
his conviction, and therefore cannot properly be
construed under any circumstances as the equivalent to
a subsequent habeas petition”). The Supreme Court
granted certiorari and reversed in a 9-0 decision, holding
that method-of-execution claims are cognizable under
§ 1983. Nelson, 541 U.S. 637.
To be sure, there is a difference between this case
and Nelson. While the prisoner in Nelson did not object
to being executed by lethal injection—provided it was
administered more humanely—Nance claims that any
type of lethal injection would be cruel and unusual
because of his particular medical condition. He asks to
be executed by firing squad instead—a method not
currently permitted under Georgia law. But we faced a
nearly identical § 1983 claim only years ago when a
death-row prisoner challenged execution via lethal
injection, and instead suggested a firing squad as an
alternative method. Arthur v. Comm’r, Ala. Dep’t of
Corr., 840 F.3d 1268 (11th Cir. 2016). There, we
(mistakenly) held in a divided panel that the prisoner
failed to state a claim, in part because “firing squad is not
a currently valid or lawful method of execution in
Alabama.” Id. at 1316. But see id. at 1321–33 (Wilson,
J., dissenting) (noting that Utah had recently used the
firing squad to execute a prisoner and therefore it was
“a potentially viable alternative,” so “Arthur may be
entitled to relief . . . based on that method of execution”).
The majority’s holding in Arthur turned out to be
wrong. Bucklew v. Precythe, 587 U.S. ___, 139 S. Ct.
1112 (2019). In Bucklew, the Supreme Court made clear

80a
that “[a]n inmate seeking to identify an alternative
method of execution is not limited to choosing among
those presently authorized by a particular State’s law.”
Id. at 1128. A method-of-execution claim can allege that
there is “a feasible and readily implemented alternative
method of execution that would significantly reduce a
substantial risk of severe pain and that the State has
refused to adopt without a legitimate penological
reason.” Id. at 1125 (citing Baze v. Rees, 553 U.S. 35, 52
(2008); Glossip v. Gross, 576 U.S. 863, 868–79 (2015)).
And even if applicable state law does not authorize any
such option, the prisoner “may point to a wellestablished protocol in another State as a potentially
viable option.” Id. at 1128. Justice Kavanaugh wrote
separately in Bucklew to emphasize this point. Id. at
1136 (Kavanaugh, J., concurring) (“I write to underscore
the Court’s additional holding that the alternative
method of execution need not be authorized under
current state law—a legal issue that had been uncertain
before today’s decision. Importantly, all nine Justices
today agree on that point.” (citations omitted) (citing
Arthur v. Dunn, 580 U.S. ___, 137 S. Ct. 725, 729–31
(2017) (mem.) (Sotomayor, J., dissenting))). Shortly
thereafter, we acknowledged the obvious: “Bucklew
demonstrates our conclusion in Arthur was incorrect.”
Price v. Comm’r, Dep’t of Corr., 920 F.3d 1317, 1326
(11th Cir. 2019) (per curiam).
It has since been well-established in our circuit that,
not only can a prisoner plead a method of execution not
authorized under state law, but § 1983 is the proper
avenue of relief, and, as a corollary, such claims cannot
be brought in habeas. See McNabb v. Comm’r Ala. Dep’t

81a
of Corr., 727 F.3d 1334, 1344 (11th Cir. 2013) (explaining
that a challenge to the method of execution is properly
brought under § 1983 and that issues to be raised in
§ 1983 are “mutually exclusive” of those to be raised in
habeas); Tompkins v. Sec’y, Dep’t of Corr., 557 F.3d 1257,
1261 (11th Cir. 2009) (per curiam) (same); see also
Hutcherson v. Riley, 468 F.3d 750, 754 (11th Cir. 2006)
(similarly explaining that a petition for habeas corpus
and a complaint under § 1983 are mutually exclusive).
Consequently, it is not surprising that the State in
this case did not even contest that Nance’s complaint
was cognizable under § 1983. The panel raised the issue
sua sponte, just two weeks before oral argument, in an
appeal involving death by execution, without giving the
parties an adequate opportunity to prepare to address
the issue.
The panel majority then dismissed Nance’s claim,
following the same line of reasoning that the Supreme
Court rejected in Bucklew—but this time framing the
defect as jurisdictional rather than as a failure to state a
claim. Nance, 981 F.3d at 1203.
The majority
rationalized its approach using dicta from three
Supreme Court decisions. Nelson, 541 U.S. at 644 (“In a
State . . . where the legislature has established lethal
injection as the preferred method of execution, a
constitutional challenge seeking to permanently enjoin
the use of lethal injection may amount to a challenge to
the fact of the sentence itself.” (citation omitted)
(emphasis added)); Hill v. McDonough, 547 U.S. 573, 579
(2006) (same); Bucklew, 139 S. Ct. at 1128 (“[E]xisting
state law might be relevant to determining the proper

82a
procedural vehicle for the inmate’s claim.” (emphasis
added)).
None of this vaguely worded dicta is irreconcilable
with construing a claim like Nance’s as a civil rights
claim rather than a habeas petition. Even assuming it is
possible for a purported method-of-execution claim to
cross the line between § 1983 and habeas (perhaps if the
record made clear that the prisoner’s intent was, in
reality, to challenge his sentence itself), there is no
support for the majority’s view that pleading an
alternative not authorized by state law necessarily
precludes a claim from proceeding under § 1983, thereby
jurisdictionally barring cases like these. If that were so,
I find it inconceivable that the Supreme Court would not
have said as much when it emphasized that a prisoner
can point to an alternative method of execution
authorized in another State.
The Supreme Court has had to correct our prior
decisions in this arena. I am concerned for this court’s
credibility if we refuse to listen to the Supreme Court
and again must be corrected. At a minimum, the panel’s
decision will generate confusion in our circuit about how
to bring method-of-execution claims. Nance, 981 F.3d at
1214, 1223 (Martin, J., dissenting). For these reasons, I
would rehear the case en banc to provide much-needed
clarity on this issue.
Nance’s case also presents a question of exceptional
importance necessitating en banc review. We bear great
responsibility in overseeing the methods by which a
State can kill its citizens. It is a great failure of this court
today to ignore the impact of this decision on other
death-row prisoners in our circuit. Especially here,

83a
where the stakes are particularly high because this
decision would leave prisoners like Nance without a
remedy in federal court—no matter how cruel and
unusual the state’s authorized method of execution
might be.2 The panel majority’s holding not only
“deprive[s] [Nance] of a claim he ha[s] every right to
pursue,” id. at 1218—it takes that right from death-row
prisoners to come. Along with Nance, they too may be
executed without their constitutional claims ever
making it past the courthouse door.
Nance did everything he was supposed to: he made a
colorable claim, alleged sufficient facts, and proposed a
viable remedy in accordance with Bucklew. But this
court told him no anyway, claiming that “[n]o matter
how you read it, Nance’s complaint attacks the validity
of his death sentence.” Nance, 981 F.3d at 1211. Except,
no matter how you read it, it doesn’t. There is no
constitutional impediment to the State executing Nance
by firing squad. This much is clear in light of Malloy v.
South Carolina, where the Supreme Court held that a
legislative change in the mode of execution after a crime
has been committed does not constitute an ex post facto
violation. 237 U.S. 180, 185 (1915) (“The statute under
consideration did not change the penalty—death—for
murder, but only the mode producing this . . . .”).
Numerous state courts have concluded the same. E.g.,
2

At oral argument in Nelson v. Campbell, Justice Ginsburg
expressed her concern with this conundrum through the following
hypothetical: “[T]he State tells the inmate that they’re going to
hang him up by his thumbs and beat him with a whip until he dies.”
Transcript of Oral Argument at 35, l, 541 U.S. 637 (2004). What then
would be his remedy?

84a
Ex parte Granviel, 561 S.W.2d 503, 510 (Tex. Crim. App.
1998) (en banc); State ex rel. Pierce v. Jones, 9 So. 2d 42,
46 (Fla. 1942); State v. Brown, 32 P.2d 18, 25 (Ariz. 1934);
Woo Dak San v. State, 7 P.2d 940, 941 (N.M. 1932).
Therefore, by asking to be executed by firing squad,
Nance is not seeking to avoid his execution. He accepts
his fate. He does not ask to be spared. Nance asks only
that the method by which the State will take his life falls
in line with his Eighth Amendment right to be free of
cruel and unusual punishment.
The constitutionality of the method of Nance’s
execution should have weighed heavily on this court. It
should have been deemed worthy of en banc review.
Sadly, by declining to rehear Nance’s case, a majority of
the court follows a pattern of employing faulty reasoning
to bar relief from inhumane executions. I dissent from
the denial of rehearing en banc.

85a
Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
MICHAEL WADE
NANCE,
Plaintiff,
v.
TIMOTHY C. WARD,
Commissioner, Georgia
Department of
Corrections,
BENJAMIN FORD,
Warden, Georgia
Diagnostic and
Classification Prison,
Defendants.

)
)
)
)
)
) CIVIL ACTION NO.:
)
)
)
)
)
)
)
)
)
)

COMPLAINT OF MICHAEL WADE NANCE
1.
This is an action by Michael Wade Nance
seeking to have the court order Defendants not to
execute Mr. Nance under their current execution
policies and procedures and to enforce Mr. Nance’s
rights under 42 U.S.C. § 1983 and the Eighth and
Fourteenth Amendments of the United States
Constitution.
2.
Mr. Nance is a death-sentenced prisoner
whom Defendants intend to execute by lethal injection.

86a
Mr. Nance’s veins are extremely difficult to locate
through visual examination, and those veins that are
visible are severely compromised and unsuitable for
sustained intravenous access. If Defendants attempt to
execute Mr. Nance by lethal injection, there is a
substantial risk that Mr. Nance’s veins will lose their
structural integrity and “blow,” leading to the leakage of
the lethal injection drug into the surrounding tissue.
The leakage of the lethal injection drug causes intense
pain and burning in the surrounding tissue, and also
results in inadequate or inconsistent drug delivery,
leading to a prolonged execution that will produce
excruciating pain.
3.
In addition, Mr. Nance has been taking
increasing dosages of prescription gabapentin for
several years to treat chronic back pain. Mr. Nance’s
continuous exposure to gabapentin has altered his brain
chemistry in such a way that pentobarbital will no longer
reliably render him unconscious and insensate, further
creating and exacerbating the substantial risk that Mr.
Nance will consciously suffer a prolonged and painful
execution.
4.
Accordingly, Defendants’ current execution
protocol presents a substantial risk of serious harm to
Mr. Nance that is objectively intolerable, in violation of
the Eighth and Fourteenth Amendments of the United
States Constitution. Defendants could avoid subjecting
Mr. Nance to a gratuitously painful execution by
implementing a readily available alternative, namely
death by firing squad, which would significantly reduce
the substantial risk of severe pain.

87a
THE PARTIES
5.
Plaintiff Michael Nance is a United States
citizen and resident of the State of Georgia. He is a
death-sentenced prisoner currently being held in the
custody of Defendants at the Georgia Diagnostic and
Classification Prison (the “Prison”) in Jackson, Georgia.
6.
Defendant Timothy C. Ward is the
commissioner of the Georgia Department of Corrections
(“DOC”), which is headquartered in Atlanta, Georgia.
He is being sued here in his official capacity.
7.
As commissioner, Defendant Ward is
responsible for the supervision, direction, and execution
of operations at the DOC.
8.
Ward has a duty to ensure that executions are
carried out in compliance with DOC procedure.
9.
Ward also has a duty to ensure that
executions are carried out in a manner consistent with
and not in violation of the Eighth and Fourteenth
Amendments of the United States Constitution.
10.
Defendant Benjamin Ford is the warden of
the Prison. He is being sued here in his official capacity.
11.
As warden, Defendant Ford is responsible for
the day-to-day operations of the prison.
12.
Ford has a duty to ensure that executions are
carried out in compliance with DOC procedure.
13.
Ford also has a duty to ensure that executions
are carried out in a manner consistent with and not in
violation of the Eighth and Fourteenth Amendments of
the United States Constitution.

88a
JURISDICTION
14.
Jurisdiction over this matter arises under 42
U.S.C. § 1983, 28 U.S.C. § 1331, 23 U.S.C. § 1343, 28
U.S.C. § 2201, and 28 U.S.C. § 2202.
VENUE
15.
Venue is proper in the Northern District of
Georgia under 28 U.S.C. § 1391(b).
PROCEDURAL HISTORY
16.
In the Superior Court of Gwinnett County in
1997, a jury convicted Mr. Nance for malice murder and
five other crimes and sentenced him to death.
17.
On direct appeal, the Georgia Supreme Court
affirmed Mr. Nance’s convictions but reversed his death
sentence.
18.
A new sentencing trial in 2002 resulted in a
new death sentence, which the Georgia Supreme Court
affirmed on direct appeal.
19.
Mr. Nance then filed a petition for collateral
relief in the Superior Court of Butts County. That court
granted him relief from the death sentence after
concluding that Mr. Nance had received ineffective
assistance of counsel at the resentencing trial. The State
appealed.
20.

In 2013, the Georgia Supreme Court reversed.

21.
At the end of 2013, Mr. Nance filed a 28 U.S.C.
§ 2254 petition in this Court. In 2017, this Court denied
relief but granted a certificate of appealability on two of
Mr. Nance’s claims: (1) his trial counsel were ineffective
in presenting his case in mitigation, and (2) the trial

89a
court erred in requiring him to wear a stun belt during
the resentencing trial.
22.
On April 30, 2019, the United States Court of
Appeals for the Eleventh Circuit rejected Mr. Nance’s
claims and affirmed the decision by the Georgia
Supreme Court.
23.
Mr. Nance filed a petition for certiorari review
in the Supreme Court of the United States on December
9, 2019. Mr. Nance’s petition for certiorari is currently
pending before the Supreme Court.
FACTUAL BACKGROUND
A. Georgia’s Lethal Injection Procedure.
24.
The Georgia Code states that “[a]ll persons
who have been convicted of a capital offense and have
had imposed upon them a sentence of death shall suffer
such punishment by lethal injection.” O.C.G.A. § 17-1038(a).
25.
The Georgia Code defines “[l]ethal injection”
as “the continuous intravenous injection of a substance
or substances sufficient to cause death into the body of
the person sentenced to death until such person is dead.”
Id.
26.
In conducting an execution, the DOC and the
Prison maintain and follow the Lethal Injection
Procedures (attached as Exhibit 1, hereinafter
“Protocol” or “Protocols”).
27.
The Protocol specifies that a single drug—
compounded pentobarbital—is to be used for all lethal
injections.

90a
28.
Defendants
obtain
pentobarbital used in lethal
compounding pharmacy.

the
compounded
injections from a

29.
The identity of the compounding pharmacy
that manufactures the pentobarbital for executions is a
confidential state secret. O.C.G.A. § 42-5-36(d).
30.
The origin and identity of the ingredients used
by the compounding pharmacy to manufacture the
pentobarbital is also a confidential state secret. Id.
31.
The compounded pentobarbital used by
Defendants to carry out executions is not subject to the
Food and Drug Administration’s (FDA) drug-approval
process or manufacturing standards. Consequently,
Defendants’ compounded pentobarbital has not met the
FDA’s standards for quality, potency, purity and
stability.
32. Upon information and belief, the compounding
pharmacy that manufactures Defendant’s compounded
pentobarbital does not test the compounded
pentobarbital for quality, potency, purity or stability
prior to delivering it to Defendants.
33.
Since 2015, there have been problems with the
quality of the pentobarbital possessed by the State of
Georgia for use in executions, including pentobarbital
that has appeared cloudy. Because of the secrecy
surrounding Georgia’s sourcing of the drug, there is no
assurance that the quality, potency, purity or stability of
the drug is consistent with accepted medical practice or
industry standards.

91a
34.
The Protocol states that two physicians must
be present at the execution to “determine when death
supervenes” and “provide medical assistance during the
execution.” Id.
35.
The Protocol also requires an “IV Team” to be
present for executions. The IV Team must “consist of
two (2) or more trained personnel, including at least one
(1) Nurse, to provide intravenous access.” Id.
36.
The Protocol also requires an “Injection
Team” to be present for executions. The Injection Team
consists of “three (3) trained staff members to inject
solutions into the intravenous port(s) during the
execution process.” Id.
37.
The IV Team is responsible for providing “two
(2) intravenous accesses into the condemned. If the
veins are such that intravenous access cannot be
provided, a Physician will provide access by central
venous cannulation or other medically approved
alternative.” Id. at 4.
38.
Under the Protocol, members of the Injection
Team inject five grams of compounded pentobarbital
into the IV from which the drug is delivered to the
prisoner. Id. at 5. The Injection Team must inject three
different syringes—the first two syringes each
containing 2.5 mg of pentobarbital, the third syringe
containing 60 cubic centimeters of saline. Id.
39.
The Injection Team is not in the same room as
the condemned and administers the pentobarbital
remotely through many feet of IV tubing. Upon
information and belief, this necessitates the use of
several 72-inch extension sets of tubing.

92a
40.
This unnecessarily increases the risk of
leakage and/or pinching of the tubing, thereby creating
a greater risk that the prisoner will not receive the full
dose of pentobarbital.
41.
Further, the longer the IV tubing, the longer
the injected drugs will be in contact with the walls of the
tubing. This allows resistance to play a larger role in the
overall flow of the drugs and introduces significantly
more variation and risk into the process.
42.
Also, the only effective means of detecting
problems with the IV is to gauge the amount of
resistance in the tubing, an assessment that is made
more difficult with longer IV tubing. Additionally, the
execution team, on information and belief, does not
possess the training necessary to gauge this resistance.
43.
Thus, the fact that the drug is injected into the
IV in another room and must travel through many feet
of IV tubing with 60 cubic centimeters of saline before
reaching the prisoner’s vein creates a substantial risk
that the intended fatal dose of pentobarbital is not
delivered consistently or completely to the prisoner.
44.
Under the Protocol, the Warden is authorized
to instruct the Injection Team to administer an
additional dose of 5 mg of pentobarbital, and an
additional 60 cubic centimeters of saline, if the prisoner
still exhibits visible signs of life. Id.
45.
The Warden is also authorized to repeat the
entire process over again, should the prisoner continue
to exhibit signs of life after the completion of the
injections. Id.

93a
46.
Georgia has executed twenty-one (21) persons
with compounded pentobarbital under the Protocol. The
range in duration of the executions spans from at least
eight (8) to twenty-seven (27) minutes.
47.
The autopsies of at least fifteen (15) of those
individuals reveal that each suffered a significant degree
of fluid congestion in their lungs, while at least seven (7)
experienced fulminant pulmonary edema.
B. Mr. Nance’s Severely Compromised Veins.
48.

Mr. Nance’s veins are severely compromised.

49.
When receiving medical attention that
requires blood to be drawn, medical technicians have
difficulty locating a suitable vein in Mr. Nance.
50.
Obtaining and maintaining intravenous access
as required in a lethal injection is more invasive and
requires far more venous structural integrity than
drawing blood.
51.
On or around May 2019, a medical technician
at the Prison told Mr. Nance that if he were to be
executed by lethal injection, the execution team would
have to cut his neck to carry out the execution because
they would not otherwise be able to obtain sustained
intravenous access.
52.
Upon information and belief, the medical
technician was referring either to a procedure whereby
the execution team would obtain sustained venous
access through central venous cannulation or a surgical
procedure known as a cutdown.
53.
Mr. Nance had a physical examination by an
anesthesiologist on October 28, 2019.

94a
54.
The examination revealed that there are no
discernible veins on visual examination in Mr. Nance’s
forearms or left or right antecubital fossa and that Mr.
Nance’s lower extremities also lack visible and palpable
veins.
55.
The insertion of an intravenous catheter into
Mr. Nance for a lethal injection will likely require
multiple painful needle insertions and blind attempts by
the IV team to locate a suitable vein.
56.
The veins that are discernible in Mr. Nance,
either through sight or touch, are heavily scarred,
tortuous, and have thin walls.
57.
Insertion of an intravenous catheter into a
scarred and tortuous vein is extremely difficult and
presents a substantial risk that the vein will “blow” and
lose its structural integrity, causing the injected
pentobarbital to leak into the surrounding tissue.
58.
The medical term for this leakage is
extravasation.
59.
The extravasation of pentobarbital due to a
blown vein would cause Mr. Nance to experience intense
and painful burning in the surrounding tissue.
60.
The extravasation of pentobarbital due to a
blown vein would also lead to incomplete and
inconsistent drug delivery to Mr. Nance, which would
result in a prolonged and only partially anesthetized
execution wherein Mr. Nance would experience the
excruciating feeling of suffocating to death.
61.
In addition, the fact that, under the Protocol,
the Injection Team is not in the same room as the

95a
condemned and administers the pentobarbital remotely
through many feet of IV tubing significantly lessens the
probability that the Injection Team would even be
aware of a blown vein when it occurs, making it very
unlikely that the Injection Team could recognize the
extravasation and take appropriate action in a timely
manner.
C. Alternatives to Intravenous Access.
62.
The Protocol specifies central venous
cannulation as an alternative method of injection if
intravenous access cannot otherwise be established.
Exhibit 1, at 4.
63.
Central venous cannulation entails inserting a
catheter into a central vein located either in the groin, or
above or below the clavicle.
64.
Central
venous
cannulation
requires
adequately trained and experienced medical personnel
to locate and catheterize a central vein.
65.
Central venous cannulation is a complicated
medical procedure which should only be performed by
properly trained and experienced medical personnel
with access to the necessary tools and equipment. If
done incorrectly or imprecisely, the technique risks
puncturing arteries, creating a substantial risk that it
will result in a torturous and botched execution.
66.
If central venous cannulation is not a viable
alternative in a particular execution, upon information
and belief, the Execution Team will attempt to perform
a cutdown procedure.

96a
67.
A cutdown procedure entails making a deep
incision into the subject’s skin to find a blood vessel,
which is then cut open to allow for the insertion of a
catheter.
68.
A cutdown procedure is an extremely painful,
bloody, and complicated medical procedure that is rarely
used by modern medical professionals.
69.
Because cutdowns are so painful and invasive,
they are typically performed on a subject who is under
deep sedation, not local anesthetic.
70.
Even on a sedated subject, a cutdown
procedure requires greater skill than either intravenous
access or central venous cannulation. Because it is so
rarely used by modern medical professionals, most
medical professionals have never been trained and do
not possess the requisite skill to adequately perform a
cutdown.
D. Mr. Nance’s Prescription Usage of Gabapentin.
71.

Mr. Nance also suffers from chronic back pain.

72.
Since April 2016, Mr. Nance has been
administered the drug gabapentin to treat his back pain.
73.
In April 2019, his dosage increased from 800
mg, three times per day, to 900 mg, three times per day.
The dosage recently increased to 1100 mg, three times
per day.
74.
Prolonged gabapentin use alters a person’s
brain chemistry and makes the person’s brain less
responsive, or even unresponsive, to other drugs,
including pentobarbital.

97a
75.
As a result of his prolonged gabapentin use,
pentobarbital’s capacity to render Mr. Nance
unconscious and insensate during his execution will be
diminished.
76.
At the same time, pentobarbital’s effects on
Mr. Nance’s respiratory system will remain
undiminished, meaning that Mr. Nance will feel the
painful effects of the severe respiratory distress and
organ failure that occur when pentobarbital is
administered for a lethal injection.
77.
In addition, if the lethal injection induces
pulmonary edema in Mr. Nance, as it has in at least
seven (7) recent executions, Mr. Nance will feel his lungs
filling with fluid, also resulting in the excruciating
sensation of suffocating to death.
CLAIM FOR RELIEF
Defendants’ Lethal Injection Protocol as Applied to
Mr. Nance Violates His Eighth and Fourteenth
Amendment Rights Under the United States
Constitution.
78.
The Eighth Amendment’s prohibition against
cruel and unusual punishment forbids methods of
execution that involve unnecessary or wanton infliction
of pain and present a substantial risk of significant harm.
79.
Defendants’ current Protocol calls for lethal
injection, which requires the insertion of intravenous
catheters to administer the lethal drug.
80.
Mr. Nance’s difficult-to-locate and heavily
scarred, tortuous, irregular, and thin veins create a
substantial risk of unnecessary and excruciating pain

98a
during efforts to obtain IV access and the administration
of the lethal drug.
81.
Because Mr. Nance has severely compromised
veins, it will be exceedingly difficult, if not impossible,
for the IV Team to establish reliable, sustained
intravenous access during the lethal injection procedure.
82.
If the IV Team attempts to insert an
intravenous catheter into Mr. Nance’s veins, they will
very likely be unsuccessful and will, in the process, cause
excruciating pain to Mr. Nance by repeatedly
attempting to insert needles into unidentifiable and/or
inaccessible veins.
83.
Even if the IV Team eventually does obtain
intravenous access on Mr. Nance to administer the lethal
drug, Mr. Nance’s vein will likely lose structural
integrity
during
the
execution,
leading
to
extravasation—the leakage of pentobarbital into the
soft tissue surrounding the vein.
84.
Extravasation can have two severely painful
results: (1) an inadequate and/or inconsistent drug
delivery, which can cause a prolonged and only partially
anesthetized execution; and (2) an intense burning of the
tissues surrounding the vein.
85.
Assuming the IV Team is even able to find and
enter a vein, the risk of extravasation means that Mr.
Nance will then be at substantial risk to experience even
more intense pain as a result of a prolonged and only
partially anesthetized execution as his soft tissue burns
within his body.

99a
86.
Given the fact that the Injection Team will not
be in the same room as Mr. Nance, it is unlikely to even
be aware of the fact that extravasation has occurred.
87.
In addition, the risk of inconsistent and
incomplete delivery of the drug to Mr. Nance because it
is being administered through many feet of IV tubing
increases the risk of a prolonged and/or only partially
anesthetized execution.
88.
Poor or reduced quality, potency, purity or
stability of the compounded pentobarbital also increases
the risk that Mr. Nance will suffer a prolonged and/or
only partially anesthetized execution.
89.
Any factor that results in a prolonged and/or
only partially anesthetized execution will cause Mr.
Nance to experience excruciating pain as the
pentobarbital suppresses his respiratory functioning
and causes his organs to fail.
90.
Furthermore, should the attempts to provide
intravenous access fail, the alternatives are central
venous cannulation or a cutdown. Members of the
execution team lack the professional skills, training,
and/or necessary equipment to safely and humanely
perform these procedures.
91.
Regardless of the cause, if the drug is
inconsistently or inadequately delivered, or if there is a
problem with its quality, potency, purity or stability, Mr.
Nance may survive the admissions of the intended lethal
dose. If Mr. Nance shows visible signs of life, according
to the Protocol, the whole excruciating process will be
repeated.

100a
92.
Alternatively, a problem with the quality,
potency, purity or stability of the drug, or failed or
inadequate drug delivery could result in brain damage to
Mr. Nance, rather than death.
93.
Even if the Defendants’ lethal injection drug,
pentobarbital, could be humanely and effectively
administered to Mr. Nance, his altered brain chemistry
resulting from his prescribed use of gabapentin will
diminish the efficacy of the drug, which will result in it
taking a longer period of time to take effect. The risk of
inadequate or inconsistent drug delivery resulting from
the many feet of IV tubing and problems with the
quality, potency, purity or stability of the drug
significantly exacerbate this problem.
94.
As a result, Mr. Nance is at a substantial risk
of remaining conscious while the pentobarbital
suppresses his respiratory system and causes his organs
to fail.
95.
Central venous cannulation or a cutdown
procedure while Mr. Nance is conscious would further
subject Mr. Nance to excruciating pain.
96.
The pentobarbital injection may also induce
pulmonary edema, as is common in Georgia executions.
If this occurs, and Mr. Nance is not fully insensate, he
will feel his lungs filling with fluid, also resulting in the
excruciating sensation of suffocating to death.
97.
Individually or in combination, Mr. Nance’s
medical conditions (including his gabapentin treatment
for chronic back pain); the unknown and untested
quality, potency, purity and stability of the compounded
pentobarbital; the execution team’s inadequate skill,

101a
experience, and training; and other problematic
elements of the Protocol as applied to Mr. Nance (i.e.,
long tubing, remote injection, alternatives to
intravenous access) are sure or very likely to cause Mr.
Nance needless pain and suffering, and put him in
imminent danger.
98.
There is a substantial and objectively
intolerable risk that Mr. Nance will experience severe
pain and suffering if DOC and the Prison proceed to
execute him by lethal injection under the Protocols, in
violation of his Eighth Amendment rights.
99.
These risks to Mr. Nance are so substantial
and imminent that, if he is executed by lethal injection
under the Protocols, the Defendants cannot claim they
are subjectively blameless for the purposes of the
Eighth Amendment.
100. There is an alternative method of execution
that is feasible and readily implemented which will
significantly reduce or eliminate the substantial risk of
severe pain to Mr. Nance. That alternative method is
execution by a firing squad.
101. Execution by use of a firing squad is a known
and available alternative method. The Supreme Court
has held that the firing squad is a constitutionally
permissible form of execution.

102a
102. Since 1976, Utah has carried out three
executions by firing squad—most recently on July 18,
2010.1
103. Protocols for execution by firing squad are
known and available.
Utah’s technical manual,
specifying the state’s execution protocol in great detail,
is publicly accessible. See Technical Manual of Utah
Department of Corrections; see also Utah Brings Back
the Firing Squad, So How Does It Work?, ASSOCIATED
PRESS, Mar. 24, 2015.
104. Georgia could easily identify qualified
personnel to carry out an execution by firing squad.
Furthermore, Georgia already has a sufficient stockpile
or can readily obtain both the weapons and ammunition
necessary to carry out an execution.
105. Moreover, execution by firing squad is both
swift and virtually painless. If performed properly, the
use of a firing squad will eliminate the substantial risk of
severe pain that Defendants’ current execution Protocol
presents to Mr. Nance. Evidence and recent experience
strongly suggest that the firing squad is significantly
more reliable than lethal injection.
106. Accordingly, an execution by firing squad is a
known and available alternative method of execution
that presents a substantially lower risk of pain and
suffering to Mr. Nance than Defendants’ Protocols for
lethal injection.

1

Kirk Johnson, Double Murderer Executed by Firing Squad in
Utah, N.Y. TIMES, June 19, 2010, at A12.

103a
107. Faced with this viable alternative, if the
Defendants refuse to adopt Mr. Nance’s proposed
alternative,
without
a
legitimate
penological
justification for adhering to its current method of
execution, then it should be viewed as a choice by the
Defendants to intensify the sentence of death with a
cruel “superaddition” of terror and pain, in violation of
the Eighth Amendment of the United States
Constitution.
EXHAUSTION OF ADMINISTRATION
REMEDIES
108. On November 26, 2019, Mr. Nance filed a
grievance with DOC concerning his planned execution
by lethal injection under DOC’s Statewide Grievance
Procedure, Policy No. 227.02.
109. Mr. Nance’s grievance is pending, but Mr.
Nance’s complaints are “non-grievable” under DOC’s
published grievance policy.
PRAYER FOR RELIEF
For the foregoing reasons, Plaintiff Michael Nance
respectfully requests that this Court:
1. Enter a declaratory judgment under 42 U.S.C.
§ 1983 that Defendants’ plans to execute Mr.
Nance by lethal injection violate Mr. Nance’s
rights under the Eighth and Fourteenth
Amendments of the United States Constitution;
2. Grant injunctive relief to enjoin the Defendants
from proceeding with the execution of Mr. Nance
by a lethal injection under 42 U.S.C. § 1983 and

104a
the Eighth and Fourteenth Amendments of the
United States Constitution; and,
3. Issue any further relief as it seems just and
proper.
Dated: January 8, 2020

Respectfully submitted,
BAKER & HOSTETLER LLP
/s/ John P. Hutchins
John P. Hutchins
Georgia Bar No. 380692
jhutchins@bakerlaw.com
Alixandria L. Davis
Georgia Bar No. 695370
adavis@bakerlaw.com
BAKER & HOSTETLER LLP
1170 Peachtree Street,
Suite 2400
Atlanta, GA 30309-7676
Telephone: 404.459.0050
Facsimile: 404.459.5734
Vanessa Carroll
Georgia Bar No. 993425
vanessa.carroll@garesource.org
Cory Isaacson
Georgia Bar No. 983797
cory.isaacson@garesource.org
GEORGIA RESOURCE
CENTER
303 Elizabeth St. N.E.
Atlanta, GA 30307
Telephone: 404.222.9202
Facsimile: 404.222.9212

105a
Attorneys for Plaintiff Michael
Nance

